APPE A/ £>IX V.
No. 19-3300

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

BRIAN JURY,
Petitioner-Appellant,
v.
DAVID W. GRAY, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

Apr 07, 2020
DEBORAH S. HUNT, Clerk

ORDER

e

Before: ROGERS, Circuit Judge.

Brian Jury, a pro se Ohio prisoner, appeals a district court judgment denying his petition
for a writ of habeas corpus filed pursuant to 28 U.S.C. § 2254 and moves this court for a certificate
of appealability (“CO A”). He has also filed a motion to supplement his application for a CO A.
In 2014, a jury found Jury guilty of two counts of rape, one count of felonious assault, and

0 \

two counts of abduction, with three gun specifications. He was sentenced to thirty-six years of
imprisonment. The Ohio Court of Appeals affirmed Jury’s convictions and sentence. State v.
Jury, No. E-14-100, 2016 WL 1615406 (Ohio Ct. App. Apr. 22, 2016). He did not seek review
from the Ohio Supreme Court.
In 2015, while Jury’s appeal to the Ohio Court of Appeals was pending, he filed a petition
for a writ of habeas corpus in the Ohio Court of Appeals, which dismissed it. Jury v. Miller, No.
15 BE 33, 2015 WL 4541984 (Ohio Ct. App. July 22, 2015) (per curiam). The Ohio Supreme
Court affirmed. Jury v. Miller, 59 N.E.3d 1280, 1281 (Ohio 2016) (per curiam).
Also in 2015, Jury filed a motion to vacate his judgment, which the trial court denied. Jury
did not appeal this decision.

J A

,> .

No. 19-3300
-2-

In 2016, Jury filed an application to reopen his direct appeal under Rule 26(B) of the Ohio
Rules of Appellate Procedure. The Ohio Court of Appeals denied the application. In September
2016, Jury appealed to the Ohio Supreme Court, which declined to accept jurisdiction.
In 2017, Jury filed the present § 2254 petition, claiming that: (1) the trial court lacked
subject matter jurisdiction; (2) he was denied a probable cause hearing after a warrantless arrest;
(3) his right to due process was violated because the trial court, trial counsel, and the prosecutor
failed to challenge the victim’s competency, the prosecutor failed to correct false testimony, and
the prosecutor failed to disclose exculpatory evidence; (4) his appellate and trial counsel rendered
ineffective assistance; (5) he was denied compulsory process and was compelled to testify; (6) he
was subjected to cruel and unusual punishment; and (7) there was fundamental unfairness
throughout the trial that violated his right to due process.
The district court dismissed the petition in part and denied it in part, finding that grounds
one through three, six, and part of four and seven were procedurally defaulted, the remainder of
ground seven was not cognizable on habeas review, and ground five and the remainder of ground
four were not meritorious.
Jury now moves this court for a COA on grounds one through five. Because Jury failed to
raise ground six and seven in his motion for a COA, they are forfeited on appeal. See Jackson v.
United States, 45 F. App’x 382, 385 (6th Cir. 2002) (per curiam).
In his motion to supplement, Jury reiterates his second claim, emphasizing that his
warrantless arrest was unlawful and that he was denied a probable cause hearing.
A COA may be granted “only if the applicant has made a substantial showing of the denial
of a constitutional right.” 28 U.S.C. § 2253(c)(2); see Miller-El v. Cockrell, 537 U.S. 322, 327
(2003). In order to be entitled to a COA, the movant must demonstrate that reasonable jurists
would find the district court’s assessment of his claims debatable or wrong. See Slack v. McDaniel,
529 U.S. 473, 484 (2000). Under the Antiterrorism and Effective Death Penalty Act, a district
court shall not grant a habeas petition with respect to any claim that was adjudicated on the merits
in the state courts unless the adjudication resulted in a decision that: (1) was contrary to, or

2A

No. 19-3300
-3 -

involved an unreasonable application of, clearly established federal law as determined by the
Supreme Court; or (2) was based on an unreasonable determination of the facts in light of the
evidence presented to the state courts. See 28 U.S.C. § 2254(d). When a district court denies a
habeas petition on procedural grounds, the applicant must show that “jurists of reason would find
it debatable whether the petition states a valid claim of the denial of a constitutional right and that
jurists of reason would find it debatable whether the district court was correct in its procedural
ruling.” Slack, 529 U.S. at 484.
Procedurally Defaulted Claims
A habeas petitioner procedurally defaults a federal claim in state court when
(1) the petitioner fails to comply with a state procedural rule; (2) the state courts
enforce the rule; (3) the state procedural rule is an adequate and independent state
ground for denying review of a federal constitutional claim; and (4) the petitioner
cannot show cause and prejudice excusing the default.
Peoples v. Lafler, 734 F.3d 503, 510 (6th Cir. 2013) (quoting Guilmette v. Howes, 624 F.3d 286,
290 (6th Cir. 2010)). If a claim is procedurally defaulted, federal habeas review “is barred unless
the prisoner can demonstrate cause for the default and actual prejudice as a result of the alleged
violation of federal law, or demonstrate that failure to consider the claims will result in a
fundamental miscarriage of justice.” Coleman v. Thompson, 501 U.S. 722, 750 (1991).
Grounds One and Two1
Procedural Default
Jury raised ground one in his state habeas petition, and the state court dismissed it on
procedural grounds. Jury, 2015 WL 4541984, at *1. The Ohio Supreme Court affirmed on the
same basis. Jury, 59 N.E.3d at 1281. Jury also raised this claim in his motion to vacate his
conviction and sentence, and, again, the state court rejected it on procedural grounds (namely, res
judicata). Reasonable jurists therefore would agree that this claim is procedurally defaulted. See
Lafler, 734 F.3d at 510.
l

Grounds one and two are addressed together because they are based on the same
allegations (namely, that the trial court lacked subject matter jurisdiction in view of a faulty
charging instrument, an improper warrantless arrest, and the lack of a probable cause hearing).

3A

No. 19-3300
-4-

With respect to ground two, Jury conceded in his § 2254 petition that he first raised this
claim in his appeal to the Ohio Supreme Court after the Ohio Court of Appeals denied his 26(B)
application. Reasonable jurists therefore would agree that this claim is procedurally defaulted.
See O’Sullivan v. Boerckel, 526 U.S. 838, 845 (1999).
Alleged Cause and Prejudice to Excuse the Procedural Default
In an attempt to establish cause to excuse the default of grounds one and two, Jury first
argues that his appellate counsel was ineffective for failing to challenge his charging instrument
(and, thus, the trial court’s subject matter jurisdiction) on direct appeal. Although Jury claims that
he was not charged by a complaint, he was charged by an indictment—and that is sufficient to
establish a trial court’s subject matter jurisdiction in Ohio. See Ohio v. Quinnie, No. 105104, 2017
WL 1743002, at *2 (Ohio Ct. App. May 4, 2017) (adding that “the existence of a complaint is
irrelevant in regard to the trial court’s subject matter jurisdiction in felony cases”). Any challenge
to Jury’s charging instrument therefore would have been meritless, and “counsel cannot be
ineffective for a failure to raise an issue that lacks merit.” Greer v. Mitchell, 264 F.3d 663, 676
(6th Cir. 2001).
Jury also argues that the default of grounds one and two is excused by his appellate
counsel’s failure to challenge his allegedly unlawful arrest and lack of probable cause hearing. But
as the Ohio Court of Appeals found in its order denying Jury’s Rule 26(B) application, there was
sufficient probable cause to arrest Jury.
In particular, in Ohio, “officers without personal knowledge of specific facts establishing
probable cause may rely on police dispatches to establish probable cause.” State v. Amilcar, No.
08AP-357, 2008 WL 5423263, at *5 (Ohio Ct. App. Dec. 30, 2008). During Jury’s trial, Officer
James Wolford of the City of Loraine Police Department testified that, at the start of his shift, he
had been briefed that Jury was a suspect in an alleged kidnapping and rape in Erie County.
Wolford stated that he had been informed by the City of Loraine Police Department of Jury’s
possible location and that the Erie County Sheriffs Office had a warrant for his arrest. Wolford
testified that he witnessed Jury being followed on his motorcycle by two patrol cars that were

HA

No. 19-3300
-5attempting to get him to stop. After Jury’s arrest, Wolford searched him and recovered a loaded
.22 caliber pistol and a loaded 9-millimeter pistol. On this authority and these facts, the Ohio
Court of Appeals concluded that Wolford had probable cause to arrest Jury. It follows that a
request for a probable cause hearing would have been meritless. Because attorneys cannot be
ineffective for failing to raise an issue that lacks merit, Greer, 264 F.3d at 676, no jurist could
debate the district court’s conclusion that Jury failed to establish cause to overcome the default of
grounds one and two.
Ground Three
Procedural Default
The first portions of Jury’s third claim are that his right to due process was violated because
the trial court, trial counsel, and the prosecutor failed to challenge the victim’s competency, and
that the prosecutor failed to correct false testimony. Although Jury raised these claims in his
September 2016 appeal to the Ohio Supreme Court, he did not raise them in his direct appeal to
the Ohio Court of Appeals. Reasonable jurists therefore would agree that these parts of ground
three are procedurally defaulted. See O’Sullivan, 526 U.S. at 845.
The final portion of Jury’s third claim is that the prosecutor committed misconduct by
failing to “timely” disclose exculpatory evidence, in violation of Jury’s due process rights under
Brady v. Maryland, 373 U.S. 83 (1963). Jury raised this claim in his motion to vacate, but he
failed to appeal the trial court’s order that denied the motion. Although Jury raised this claim in
his Rule 26(B) application, a Rule 26(B) application preserves only ineffective-assistance-ofappellate-counsel claims—not the underlying substantive claims.

See Ohio App. R. 26(B);

Wogenstahl v. Mitchell, 668 F.3d 307, 338 (6th Cir. 2012). Reasonable jurists therefore would
agree that this prosecutorial-misconduct claim is procedurally defaulted. See O ’Sullivan, 526 U.S.
at 845.
Alleged Cause and Prejudice to Excuse the Procedural Default
Jury seeks to overcome the default by claiming that his appellate counsel was ineffective.
With respect to the first part of ground three, the district court rejected this argument, reasoning

5A

No. 19-3300
-6that trial counsel sufficiently challenged the victim’s credibility by questioning her regarding her
ability to recall events due to the fact that she was under the influence of drugs at the time of the
crime. The district court therefore agreed with the Ohio Court of Appeals that “this is a witness
credibility issue; it is not a competency issue,” and noted that trial counsel “repeatedly referred to
the victim’s toxicology report, her admitted use of heroin, and the inconsistencies in statements
she made to the hospital, police, and trial.” The district court thus concluded that appellate counsel
was not ineffective for failing to argue that trial counsel should have challenged the victim’s
competency at trial, because he thoroughly challenged her credibility at trial. No reasonable jurist
could disagree. See, e.g., State v. Madison, No. 06AP-1126, 2007 WL 2009537, at *4-5 (Ohio Ct.
App. July 12,2007) (finding that a witness’s history of crack cocaine use did not render the witness
incompetent to testify, noting that “imperfect recollection goes to the credibility of a witness”
rather than to her competency).
The district court also concluded that appellate counsel was not ineffective for not arguing
that the prosecutor failed to correct false testimony. To show that a prosecutor presented false
testimony, a defendant must show that (1) the testimony was actually false, (2) the testimony was
material, and (3) the prosecutor knew the testimony was false. Coe v. Bell, 161 F.3d 320, 343 (6th
Cir. 1998). Jury has failed to show any of these factors. For instance, he claims that a witness
falsely testified about his (Jury’s) whereabouts right after the crimes, but he fails to show that such
testimony—even if false—was material or that the prosecutor knew that it was false. The district
court’s conclusion that the ineffective assistance of appellate counsel could not overcome the
default of Jury’s false-testimony claim therefore is not debatable among jurists of reason.
Finally, the district court concluded that appellate counsel was not ineffective for failing to
challenge the prosecutor’s alleged Brady violation.

Jury claims that “[t]he prosecutor had

information favorable to the defense” that was withheld from the defense until four days before
trial. But this court has held that no Brady violation exists where, as here, there is no adverse
impact on trial preparation. See Webb v. Mitchell, 586 F.3d 383, 391 (6th Cir. 2009). Jury also
claims that the prosecution failed to interview allegedly exculpatory witnesses, failed to obtain his

6A

No. 19-3300
-7and the victim’s cell phone data, and failed to take a blood sample for testing. But “while the
prosecution has a duty to disclose exculpatory evidence, it has no duty to seek out or investigate
information that would lead to exculpatory evidence. That is, the government has no obligation to
act as an investigator for the defense.” Stephen Saltzburg & Daniel Capra, American Criminal
Procedure 1016-17 (9th ed. 2010) (citing Arizona v. Youngblood, 488 U.S. 51 (1988)); see also,
e.g., United States v. Kraemer, 810 F.2d 173, 178 (8th Cir. 1987) (explaining that the prosecution
is not required “to search out exculpatory evidence for the defendant”),

Under these

circumstances, appellate counsel could not have been ineffective for failing to argue that the
jprosecution violated Brady. See Greer, 264 F.3d at 676. Reasonable jurists therefore would agree
that the alleged ineffective assistance of appellate counsel could not overcome the default of this
prosecutorial-misconduct claim.
Ground Four
Procedural Default
The district court determined that the ineffective-assistance-of-trial-counsel claims raised
in ground four were procedurally defaulted. Jury failed to raise in these claims on direct appeal,
and he likewise failed to raise them in his Rule 26(B) application, in his September 2016 appeal
to the Ohio Supreme Court, or both. And although he raised several ineffective-assistance-of-trialcounsel claims in his motion to vacate, he failed to appeal the trial court’s order that denied the
motion. Reasonable jurists therefore would agree that these claims are procedurally defaulted.
See O’Sullivan, 526 U.S. at 845.
Alleged Cause and Prejudice to Excuse the Procedural Default
In an attempt to establish cause to excuse the default of his ineffective-assistance-of-trialcounsel claims raised in ground four, Jury argues that his appellate counsel was ineffective for
failing to raise these claims on appeal. The district court rejected this argument. No reasonable
jurist could disagree: that the ineffective-assistance-of-trial-counsel claims that Jury contends
appellate counsel should have raised on appeal were not “clearly stronger” than the claims that
appellate counsel raised on appeal. Sylvester v. United States, 868 F.3d 503, 510 (6th Cir. 2017)

7A

No. 19-3300
-8(quoting Monzo v. Edwards, 281 F.3d 568, 579 (6th Cir. 2002)). For instance, Jury’s claim that
his trial counsel was ineffective for failing to challenge his warrantless arrest was not clearly
stronger than the issues raised on direct appeal because, as set forth above, there was sufficient
probable cause to support Jury’s arrest. Even if his remaining claims—namely, that trial counsel
was ineffective for failing to investigate forensic evidence, for failing to call certain witnesses, for
failing to request a change of venue or to conduct a diligent voir dire due to pretrial publicity, or
for failing to request a continuance after receiving allegedly exculpatory evidence six days before
trial—showed that his trial counsel performed deficiently, Jury has failed to establish that the result
of his trial would have been different had trial counsel engaged in these actions, particularly in
view of all of the evidence presented at trial that supported Jury’s guilt. See Jury, 2016 WL
1615406, at *1-8. No reasonable jurist therefore could debate the district court’s conclusion that
the ineffective assistance of appellate counsel could not overcome the default of Jury’s ineffectiveassistance-of-trial-counsel claims.
Claims Denied on the Merits
Ground Four
Jury’s second part of his fourth claim asserted that his appellate counsel rendered
ineffective assistance by failing to: (1) request voir dire; (2) address the ineffectiveness of trial
counsel for failing to challenge the competency of the victim; and (3) raise ineffective-assistanceof-trial-counsel claims for failure to investigate and object during the proceedings, failure to
challenge the validity of the indictment, and failure to investigate a “mystery semen donor.”
“[Effective assistance does not require counsel to raise every nonfrivolous argument on
appeal.” Fautenberry v. Mitchell, 515 F.3d 614, 642 (6th Cir. 2008). In the appellate context,
“only when ignored issues are clearly stronger than those presented, will the presumption of
effective assistance of counsel be overcome.” Sylvester, 868 F.3d at 510 (quoting Monzo, 281
F.3d at 579). The failure to raise an issue on appeal constitutes ineffective assistance only if there
is a reasonable probability that inclusion of the issue would have changed the outcome of the
appeal. Wade v. Timmerman-Cooper, 785 F.3d 1059, 1077 (6th Cir. 2015).

QA

No. 19-3300
-9The district court concluded that Jury failed to make this showing. On direct appeal,
appellate counsel argued that: (1) the verdict was against the manifest weight of the evidence;
(2) the trial court erred when it failed to instruct the jury on a lesser included offense of sexual
battery; (3) the trial court erred in denying Jury’s motion for mistrial; (4) the testimony of the
victim was wrongfully bolstered by inadmissible hearsay; (5) Jury’s sentence should be vacated
because the trial court failed to make specific findings of fact under Ohio Revised Code
§ 2929.14(C)(4); and (6) Jury’s sentence was excessive and contrary to law. See Jury, 2016 WL
1615406, at *8.

The Ohio Court of Appeals rejected the relevant ineffective-assistance-of-

appellate-counsel claims when it denied Jury’s Rule 26(B) application, noting that “the errors
raised on appeal appear to be the strongest.” Jury has not sufficiently rebutted this finding; nor
has he shown that there is a reasonable probability that inclusion of the voir-dire or ineffectiveassistance-of-trial-counsel claims identified above would have changed the outcome of his appeal.
No reasonable jurist therefore could debate the district court’s rejection of the ineffectiveassistance-of-appellate-counsel claims raised in ground four.
Ground Five
Jury’s fifth claim is that he was compelled to testify and was denied compulsory process
because counsel had him testify before his expert witness. The district court construed this claim
as raising an ineffective assistance claim and denied it. The court reasoned that Jury’s counsel
neither forced him to testify nor forced him to testify at the time that he did. The record supports
this finding. The district court also noted that counsel had Jury testify before his expert witness so
as to avoid a delay in the trial, as the expert witness was not due to arrive in court for one hour
after Jury was called to the stand.

Again, the record supports this finding.

Under these

circumstances, no reasonable jurist could debate the district court’s conclusion that counsel made
a reasonable strategic decision to have Jury testify before his expert witness.
Request for Evidentiary Hearing
Jury also challenges the district court’s denial of his request for an evidentiary hearing. But
because his claims could be rejected on the basis of the existing record, reasonable jurists could

<?A

No. 19-3300
- 10not debate the district court’s decision not to hold an evidentiary hearing. See Muniz v. Smith, 647
F.3d 619, 625 (6th Cir. 2011) (“A district court is not required to hold an evidentiary hearing if the
record ‘precludes habeas relief.”’ (quoting Schriro v. Landrigan, 550 U.S. 465, 474 (2007))).
Challenge to Denial of Miscellaneous Motions
Finally, Jury challenges the denial of several miscellaneous motions (e.g., for discovery
and to expand the record). Because none of these motions makes a substantial showing of the
denial of a constitutional right, no reasonable jurist could debate the district court’s denial of these
motions.
Accordingly, the court GRANTS Jury’s motion to supplement his motion for a COA and
DENIES his motion for a COA.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

foA

Case: 3:17-cv-00304-JJH Doc#: 36 Filed: 03/28/19 1 of 14. PagelD #: 3347

A PPHNj>

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
WESTERN DIVISION

Case No. 3:17-cv-304

Brian Jury, pro se,

Petitioner,
MEMORANDUM OPINION
AND ORDER

v.

David W. Gray, Warden,

Respondent.

I.

Introduction

Petitioner Brian Jury, who is proceeding pro se, seeks a writ of habeas corpus under 28 U.S.C.
§ 2254,'related to his convictions for two counts of rape, one count of felonious assault, two counts
of abduction, and one count of kidnapping following a 2014 jury trial in the Erie County, Ohio
Court of Common Pleas. (Doc. No. 1). Three of the counts included gun specifications.
Magistrate Judge Kathleen B. Burke reviewed Jury’s petition and the arguments of the parties
pursuant to Local Rule 72.2(b)(2) and recommends I deny the petition. (Doc. No. 19). Jury has
filed timely objections to Judge Burke’s Report and Recommendation. (Doc. No. 20).
Jury also has filed two untimely motions to supplement his objections, (Doc. No. 21 and 24),
three motions to expand the record, (Doc. No. 25, 28, and 33), and a motion for an injunction
related to one of his motions to expand the record (Doc. No. 31). For the reasons stated below, I
overrule Jury’s objections, deny each of his motions, and adopt Judge Burke s Report and
Recommendation.

I/A

Case: 3:17-cv-00304-JJH Doc#: 36 Filed: 03/28/19 2 of 14. PagelD#:3348

II.

Background

In November 2013, Jury was indicated by an Erie County grand jury on two counts of
kidnapping, one count of felonious assault, one count of attempted murder, and five counts of rape.
(Doc. No. 8-1 at 6-7). Seven of these counts also carried firearm specifications. (Doc. No. 8-1 at 7).
An Erie County jury convicted Jury of one count of abduction, one count of abduction with a
firearm specification, two counts of rape with firearm specifications, and one count of felonious
assault. (Doc. No. 8-1 at 136). Jury “stipulates” to Judge Burke’s statement of the factual and
procedural history of the state court proceedings, except that he claims Judge Burke and the Sixth
District, Ohio Court of Appeals improperly omitted other facts underlying his numerous claims for
relief. (Doc. No. 20 at 2-3).
As Judge Burke noted, Jury must demonstrate, by clear and convincing evidence, that the
state court’s factual findings were incorrect. 28 U.S.C. § 2254(e)(1). He does not offer any evidence
that those findings in fact were incorrect, and therefore I overrule any objection to Judge Burke’s
recitation of the factual and procedural history of this case. I adopt those sections of the Report and
Recommendation in full. {See Doc. No. 19 at 2-13).
III.

Standard

Once a magistrate judge has filed a report and recommendation, a party to the litigation may
“serve and file written objections” to the magistrate judge’s proposed findings and
recommendations, within 14 days of being served with a copy. 28 U.S.C. § 636. Written objections
“provide the district court with the opportunity to consider the specific contentions of the parties
and to correct any errors immediately . . . [and] to focus attention on those issues — factual and legal
- that are at the heart of the parties’ dispute.” Kelly v. Withrow, 25 F.3d 363, 365 (6th Cir. 1994)
(quoting United States v. Walters, 638 F.3d 947, 949-50 (6th Cir. 1981) and Thomas v. Arn, 474 U.S.
140,147 (1985)). A district court must conduct a de novo review only of the portions of the

2

\ZA

Case: 3:17-cv-00304-JJH Doc#: 36 Filed: 03/28/19 3 of 14. PagelD#:3349

magistrate judge’s findings and recommendations to which a party has made a specific objection. 28
U.S.C. § 636(b)(1)(C); Fed. R. Civ. P. 72(b)(3).
IV.

Discussion

The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”) prohibits the
issuance of a writ of habeas corpus “with respect to any claim that was adjudicated on the merits in
State court proceedings unless the adjudication of the claim:
(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court
of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.”
28 U.S.C. § 2254(d)(1).
Jury asserts seven grounds for relief:
I. Erie County lacks subject matter jurisdiction.
II. An otherwise unlawful arrest cannot be overcome with a belated injection of
theory; nor can a citizen be denied a probable cause hearing on such a
“warrantless arrest.”
III. Due Process was violated for the courts, counsel, and prosecutor for failing to
challenge [the] competency of [the] alleged victim; prosecutorial misconduct in his
failure to correct false testimony, and provide “timely” disclosure of exculpatory
evidence.
IV. [Appellate]/trial counsel failed to act as counsel guaranteed [by the Constitution],
V. Appellant was denied compulsory process and was compelled to testify.
VI. Appellant/petitioner was subjected to cruel and unusual punishment.
VII. Fundamental unfairness throughout trial proceedings created several due
process violations against petitioner.
(Doc. No. 1 at 7-15).

3

)3A

Case: 3:17-cv-00304-JJH Doc#: 36 Filed: 03/28/19 4 of 14. PagelD#:3350

Judge Burke recommends I dismiss Jury’s petition in part and deny it in part because (a)
Grounds 1, 2, 3, 6, and part of Grounds 4 and 7, are procedurally defaulted; (b) the remainder of
Ground 7 is not cognizable in habeas proceedings; and (c) Ground 5 and the remainder of Ground
4 are not meritorious. (Doc. No. 19 at 1-2).
A. Ground I
Judge Burke recommended I dismiss Ground I as procedurally defaulted. Jury raised this
claim as his sole ground for relief in his state habeas petition and the Ohio appellate court dismissed
the petition because Jury’s subject-matter-jurisdiction claim could only be raised on direct appeal.
The Supreme Court of Ohio affirmed. Jury v. Miller, 59 N.E.3d 1280 (Ohio 2016). Jury also raised
Ground I in his petition to vacate or set aside his conviction and sentence, which the trial court
denied on the basis of the res judicata doctrine. Jury did not appeal that decision. Finally, Jury
discussed this claim in his Ohio Rule 26(B) application as part of his ineffective-assistance-ofappellate-counsel claim but, as Judge Burke notes, a Rule 26(B) application does not preserve the
defendant’s underlying constitutional claim. (See Doc. No. 19 at 20-21).
Additionally, Judge Burke concluded Jury did not demonstrate cause for his failure to raise
this claim through one full round of state appellate review or that he suffered actual prejudice as a
result, or that failure to consider his claims now will result in a fundamental miscarriage of justice.
(Doc. No. 19 at 21).
Jury claims the state courts improperly applied the procedural rules barring his claims in
Ground I because, he argues, Erie County did not have jurisdiction to indict him because no one
ever filed a complaint or affidavit to commence criminal proceedings against him. (Doc. No. 20 at
4-8). Jury does not identify a separate basis to excuse his procedural default.
While this argument does not arise often in the jurisprudence of the Ohio appellate courts,
each court to consider the argument has plainly held “the existence of a complaint is irrelevant in

4

IHA

Case: 3:17-cv-00304-JJH Doc#: 36 Filed: 03/28/19 5 of 14. PagelD #: 3351

regards to the trial court’s subject matter jurisdiction in felony cases,” because felony cases must be
initiated by a grand jury indictment. Ohio v. Quinnie, No. 105104, 2017 WL 1743002, at *2 (Ohio Ct.
App., May 4, 2017) (quoting Ohio v. Luther, No. 2003-A-0130, 2005 WL 517473, at *3 (Ohio Ct.
App. March 4, 2005)); see also Justice v. Chillicothe Corr. Inst., 2:10-cv-1152, 2011 WL 802700 (S.D.
Ohio March 2, 2011).
I overrule Jury’s objection to Judge Burke’s recommendation that I dismiss Ground I of his
habeas petition.
B. Ground II
Judge Burke recommends I conclude Ground II is procedurally defaulted for the same
reasons as Ground I. (Doc. No. 19 at 23).
Jury objects, claiming his arrest was improper because there was no warrant for his arrest at
the time officers stopped him on his motorcycle and that the subsequent grand jury proceedings do
not remedy this error. (Doc. No. 20 at 9-11).
“Whether that arrest was constitutionally valid depends in turn upon whether, at the
moment the arrest was made, the officers had probable cause to make it—whether at that moment
the facts and circumstances within their knowledge and of which they had reasonably trustworthy
information were sufficient to warrant a prudent man in believing that the petitioner had committed
or was committing an offense.” Beck v. Ohio, 379 U.S. 89, 91 (1964).
At the time officers stopped and arrested Jury, they knew a woman had been found naked
on the side of a highway, with her wrists bound behind her back and her ankles bound, and that she
had accused Jury of raping her before she was able to escape from Inis nearby trailer. Jury fails to
show these circumstances were insufficient to support probable cause for his arrest, whether with a
warrant or without one. Further, he does not demonstrate cause and prejudice to excuse his

5

/5A

Case: 3:17-cv-00304-JJH Doc#: 36 Filed: 03/28/19 6 of 14. PagelD #: 3352

procedural default, or establish a miscarriage of justice would result if his claim is not reviewed.
Coleman v. Thompson, 501 U.S. 722, 750 (1991).
I overrule his objection to Judge Burke’s recommendation that I dismiss Ground II as
procedural!}? defaulted.
C. Ground III
Judge Burke also recommends I conclude Ground III has been procedural!)? defaulted,
because July raised the issues contained in this Ground in his Rule 26(B) application, which solely
presents claims for ineffective assistance of appellate counsel and does not preserve the underlying
constitutional claims. (Doc. No. 19 at 23-24 (citing Davie v. Mitchell, 547 F.3d 297, 312 (6th Cir.
2008)). Further, while Jury included his exculpatory-evidence argument in his post-conviction
petition, he did not appeal the trial court’s denial of this petition. (Doc. No. 19 at 24).
Jury claims his claims should not be barred by the procedural default rule because his trial
and appellate attorneys were ineffective for failing to challenge, or failing to obtain, certain testimony
and evidence. (Doc. No. 20 at 18). He repeatedly argues the victim should not have been permitted
to testify because she “was under the influence of mind altering drugs during the time of the . . .
alleged incident.” (Doc. No. 20 at 14). He also claims numerous items of “false evidence” were
introduced during his trial. (Doc. No. 20 at 16).
Jury’s arguments that the trial judge, the prosecutor, and his attorneys caused his rights to be
violated when the victim was allowed to testify concerning her abduction and rape are not
persuasive. As both Judge Burke and the Sixth District Court of Appeals concluded, Jury’s
challenge to the victim’s ability to recall details of the crime involves an issue of credibility, not
competency. Individuals are presumed competent to be witnesses unless they are “of unsound
mind” and “appear incapable of receiving just impressions of the facts and transactions respecting

6

M/A

Case: 3:17-cv-00304-JJH Doc#: 36 Filed: 03/28/19 7 of 14. PagelD #: 3353

which they are examined, or of relating them truly.” Ohio Evid. R. 601(A); see also Ohio v. liradley,
538 N.E.2d 373, 378 (Ohio 1989).
Credibility determinations, on the other hand, are made by the trier of fact. As the court of
appeals noted, trial counsel “thoroughly questioned the victim about her drug use and the toxicology
report [showing the victim had alcohol and illegal drugs in her system on the day of the attack] was
testified to and admitted into evidence” for the jury’s consideration. (Sixth District Court of
Appeals decision denying Rule 26(B) application; Doc. No. 8-1 at 448-49). Defense counsel even
presented expert testimony at trial discussing which drugs the victim had consumed and the
approximate time frame in which she used them. Further, defense counsel challenged the other
testimony and evidence Jury now describes as “perjured” or “false,” and the jury had the
opportunity to observe the witnesses and consider the testimony in the context of the trial.
Jury fails to show cause or prejudice to overcome his procedural default, and I overrule his
objections to Judge Burke’s recommendation as to Ground III.
D. Ground IV
Judge Burke recommends I conclude Ground IV is procedurally-defaulted in part, and that
the remainder of this claim for relief lacks merit. Judge Burke states Jury’s claims concerning trial
counsel’s performance are procedurally defaulted because he failed to appeal the trial court s
decision rejecting those claims, and that his ineffective-assistance arguments against both trial and
appellate counsel lack merit. (Doc. No. 19 at 26-28).
Jury objects to this recommendation, asserting “there are a vast amount of sub-claims within
this claim on ineffective assistance of trial counsel, then additional sub-claims specific to that of
appellate counsel,” and that Judge Burke “either misunderstood petitioner or misconstrued his
claims.” (Doc. No. 20 at 18-19). Jury then reiterates many of the arguments he has made with

7

Case: 3:17-cv-00304-JJH Doc#: 36 Filed: 03/28/19 8 of 14. PagelD #: 3354

res pect to his other grounds for relief and concludes the decisions made by Judge Burke and the
Sixth District Court of Appeals are “unreasonable in multiple ways.” (Doc. No. 20 at 19-22).
Jury’s arguments are not persuasive. It is undisputed he failed to appeal the trial court’s
decision denying his state post-conviction petition, leaving his ineffective-assistance claims against
his trial attorney procedurally defaulted. Further, he fails to show his ineffective-assistance claims
against either his trial or appellate attorneys have any merit. Jury fails to show his attorneys’
performance was objectively unreasonable or that, but for any purported unprofessional errors, the
outcome of his trial would have been different. See, e.g, Strickland v. Washington, 466 U.S. 668, 687
(1984).
I overrule Jury’s objection to Judge Burke’s recommendation concerning Ground IV of his
habeas petition.

E. Ground V
Judge Burke recommends I deny this claim on the merits, because Jury acknowledged on the
record during trial that he had made the decision to testify, and because Jury fails to show how he
was harmed by testifying before other defense witnesses. (Doc. No. 19 at 28-30).
Jury objects, claiming that he would have concluded he did not need to testify if his expert
witness, Dr. Forney, and other witnesses, including the victim’s friend, two individuals connected
with Buckeye Molded Products (where Jury went, to respond to a work call, after zip-tying the
victim’s wrists and ankles), and the victim (who was subject to extensive cross-examination during
the prosecution’s case-in-chief), all had testified first. (Doc. No. 20 at 22-23).
It appears this claim is barred by the procedural default doctrine, because Jury presented it to
both the Sixth District and the Supreme Court of Ohio only part of his Rule 26(B) application,
which does not preserve the substantive claims underlying the challenge to appellate counsel’s
effectiveness. Davie, 547 F.3d at 312. If procedurally defaulted, Jury could present this claim if he

8

13A

Case: 3:17-cv-00304-JJH Doc#: 36 Filed: 03/28/19 9 of 14. PagelD #: 3355

could show the procedural default should be excused because the purported violation of his
Constitutional rights “has probably resulted in the conviction of one who is actually innocent.”
Hodgson v. Warren, 622 F.3d 591, 601 (6th Cir. 2010) (quoting Murray v. Carrier, All U.S. 478, 496
(1986)). The obvious problem with this route is that the right Jury claims was violated was his right
against self-incrimination. It is difficult, at best, to reconcile Jury’s assertion “that if this claim is not
reviewed, a fundamental [miscarriage] of justice would continue to occur, (Petitioner s Traverse,
Doc. No. 17 at 28), with his argument that he would not have testified if these witnesses had
testified first because he “had nothing but self-incriminating statements” to offer on the witness
stand. (Traverse, Doc. No. 17 at 27).
As Judge Burke concluded, this claim also fails on its merits. The trial court did not force
Jury to testify, or to testify at the time he did. The trial judge suggested that Jury begin testifying and
that defense counsel could pause and present testimony from Dr. Forney when he arrived. (Doc.
No. 8-2 at 830-31). Therefore, Jury’s claim is one for ineffective assistance of counsel. Trial counsel
knew what Dr. Forney’s testimony would be, and also what the other potential witnesses likely
would say. Trial counsel made a strategic decision to call Jury as a witness before those other
witnesses, and Jury fails to show that decision was outside of the “wide range of reasonable
professional assistance” or that there is a “reasonable probability” the outcome of the trial would
have been different if trial counsel had not made that decision. English v. Romanomki, 602 F.3d 714,
726 (6th Cir. 2010) (quoting Strickland, 466 U.S. at 689, 694).
I overrule Jury’s objection and adopt Judge Burke’s recommendation regarding Ground V.
F. Ground VI
Judge Burke recommends I conclude Ground VI is procedurally defaulted because Jury
“only presented these claims to the Ohio Court of Appeals as a violation of state law, not as federal

9

It A

Case: 3:17-cv-00304-JJH Doc#: 36 Filed: 03/28/19 10 of 14. PagelD#:3356

constitutional claims,” his opportunity to present them in state court has expired, and he does not
establish cause or prejudice to excuse the procedural default. (Doc. No. 19 at 31).
Jury objects, claiming his conviction and sentence were based on “materially false evidence,”
and that the trial judge “misuse[d]” information about the nature of Jury’s discharge from the
military and a previous criminal conviction when entering his sentence. (Doc. No. 20 at 23-24).
Jury does not respond to Judge Burke’s discussion of his failure to identify the violation of a specific
constitutional right during his state court proceedings, and argues only that Judge Burke
“unreasonably [downplayed] the severity of this materially false evidence ...” (Doc. No. 20 at 24).
Jury fails to establish cause or prejudice to excuse his procedural default. As the Court of
Appeals noted when it denied Jury’s arguments that his sentence was excessive and contrary to law,
the trial court relied on a summary of the evidence of Jury’s “course of conduct” during the offense.
Ohio v. Jury, 2016 WL 1615406, at *13 (Ohio Ct. App. April 22, 2016). Jury’s testimony corroborated
much of the information in this summary.
Jury fails to show the appellate court’s decision was unreasonable, that there is cause for his
failure to properly present these claims, or that he suffered prejudice as a result. I overrule his
objection to Judge Burke’s recommendation as to Ground VI.
G. Ground VII
Judge Burke recommended I conclude a portion of Ground VII is not cognizable in habeas
proceedings and the remainder is procedurally defaulted. For clarity, I quote her analysis in full:
In Ground 7, Jury lists the following sub-claims: (1) appellate counsel’s failure to
have voir dire and preliminary hearings transcribed deprived Jury of the means to
support potential claims; (2) Jury’s due process rights were violated because he was
prevented from presenting evidence to the courts and counsel; (3) the state courts
promoted unfairness with respect to the lack of probable cause for his initial arrest;
and (4) Jury was prejudiced by the cumulative effect doctrine. Doc. 1, p. 15.

10

:zM

Case: 3:17-cv-00304-JJH Doc#: 36 Filed: 03/28/19 11 of 14. PagelD#:3357

As for (1), the undersigned considered this claim when discussing Ground 4, supra,
and explained that it is procedurally defaulted and/or fails on the merits. As for (2),
Jury does not describe what evidence he was prevented from presenting to the courts
and his counsel. Thus, he has failed to properly plead his claim per Rule 2(c)(2) of
the Rules Governing Section 2254 Cases; he has also procedurally defaulted this
claim because he did not present such a claim to the Ohio courts. The undersigned
discussed (3), supra, when it considered Ground 1. Finally, (4) is not cognizable
because the cumulative effect doctrine is not available on federal habeas review.
Sheppard v. Bagley, 657 F.3d 338, 348 (6th Cir. 2011).
(Doc. No. 19 at 33).
Jury objects, acknowledging most of his claims in this section “are semblances of other
claims within his habeas corpus [petition],” but claiming “a fundamental unfairness will continue to
occur if this claim is not reviewed.” (Doc. No. 20 at 24).
Jury’s arguments are no more persuasive here than they are concerning his other grounds for
relief. I overrule his objections to Judge Burke’s recommendation as to Ground VII.
H. Motion for Evidentiary Hearing, Discovery, and Counsel
Jury also objects to Judge Burke’s denial of his motion for an evidentiary hearing, discovery,
and appointment of counsel. (Doc. No. 20 at 24-25). As I have concluded he is not entitled to
relief on any of the grounds he presents, I also conclude he is not entitled to an evidentiary hearing,
discovery, or the appointment of counsel.

I. Miscellaneous Motions
Jury has filed six additional motions - two seeking to supplement his objections to Judge
Burke’s report and recommendation, one seeking to supplement his motion for an evidentiary
hearing, two seeking to expand the record, and one motion for an injunction preserving certain cell
phone records. (Doc. No. 21, 24, 25, 28, 31, and 33).
Respondent opposes these motions. Regarding Jury’s motions to supplement his objections
- one of which seeks to expand on his objections to Judge Burke’s recommendations as to Grounds

11

2iA

Case: 3:17-cv-00304-JJH Doc#: 36 Filed: 03/28/19 12 of 14. PagelD#:3358

II and III, (Doc. No. 21), and one which requests the suppression of evidence in the event I were to
conclude jury’s Fourth Amendment rights were violated, (Doc. No. 24) - Respondent argues (a) the
motions to supplement are untimely, (b) Jury offers no explanation for his delay in filing the
motions, (c) Rule 15(a)(2) - which Jury cites in support of both motions - applies to pleadings and
not objections or other briefing in support of motions, and (d) Jury does not attempt to explain how
“justice” requires that he be permitted to supplement his objections. (Doc. No. 22 at 1-2).
Jury claims I should grant his motions because (a) Respondent has not shown Rule 15 does
not apply to supplements to objections, (b) “a month delay to supplement is not per se ‘untimely,’”
(c) he “assumed that the citing of additional supporting case law not originally addressed would be
considered ‘implied,’” and (d) he believes the phrase “‘when justice so requires’” is a stand alone
phrase not needing any additional [explanation].” (Doc. No. 23 at 1-2).
Jury’s arguments are not persuasive. The text and the history of Rule 15 make clear that it is
designed to govern amendments to pleadings, and only pleadings. See Fed. R. Civ. P. 15; 6 Charles
Alan Wright, Arthur R. Miller & Edward H. Cooper, Federal Practice and Procedure § 1471 et seq.
(3d ed. 2018).
Moreover, a month delay in filing the motion to supplement in fact is untimely. Jury had
fourteen days to file objections to Judge Burke’s report and recommendation. 28 U.S.C. § 636(b)(1).
The failure to file timely objections waives the party’s right to district court review and to appeal.
Kelly, 25 F.3d at 365; Kent v. Johnson, 821 F.2d 1220,1222-23 (6th Cir. 1987); Smith v. Detroit Fed’n of
Teachers Local 231, Am. Fed’n of Teachers, AFL-CIO, 829 F.2d 1370,1373 (6th Cir. 1987). July may not
continually file additional objections merely because he filed some initial timely objections. Id. at
1373 (“[Mjaking some objections but failing to raise others will not preserve all the objections a
party may have.” (citations omitted)).

12

224

Case: 3:17-cv-00304-JJH Doc#: 36 Filed: 03/28/19 13 of 14. PagelD#:3359

Further Jury’s “assumption” that filing some objections would bring in other case law and
arguments does not mean he is entitled to repeatedly file briefs with additional or substantiallysimilar arguments. Objections are designed to enable “the district judge to focus attention on those
issues - factual and legal - that are at the heart of the parties’ dispute.” Neuman v. divers, 125 F.3d
315, 322 (6th Cir. 1997) (quoting Thomas, 474 U.S. at 147). While I have a duty to “make a de novo
determination of those portions of the report. . . [and] recommendations to which objection is
made,” 28 U.S.C. § 636(b)(1), repeated and untimely filings result in a “duplication of time and effort
[that] wastes judicial resources rather than saving them, and runs contrary to the purposes of the
Magistrates Act.” Neuman, 125 F.3d at 322.
Nor does Jury’s recitation of the phrase “justice so requires” mean that his motions are
meritorious. This phrase is not a talisman which permits a party to do or say whatever the party
wishes. Instead, the party attempting to file a brief or, in this case, objections after the deadline to
do so must offer some explanation as to why the party did not comply with the deadline or request
an extension of time in the first instance. Though the deadline for filings objections is a procedural
rule and does not divest the district court of jurisdiction, Jury must do more than simply claim
justice will be served if I consider his untimely arguments before I can proceed with any attempt to
“balance the interests of the parties and the interests of justice in determining whether to extend
the filing deadline. Patterson v. Mint^es, 717 F.2d 284, 287 (6th Cir. 1983).
Finally, as I already have concluded Jury has not shown the state court’s factual findings
were incorrect. I conclude his motions to expand the record are moot and deny them. (Doc. No.
25, 28, 31, and 33).

13

Z3A

Case: 3:17-cv-00304-JJH Doc#: 36 Filed: 03/28/19 14 of 14. PagelD#:3360

V.

Conclusion

For the reasons stated above, I overrule Jury’s objections to Judge Burke’s Report and
Recommendation. (Doc. No. 19). Jury’s petition for a writ of habeas corpus, (Doc. No. 1), is
dismissed as to Grounds I, II, III, VI, and VII, and denied as to Grounds IV and V. Jury s motions
to supplement his objections (Doc. No. 21 and 24), to supplement his motion for an evidentiary
hearing, (Doc. No. 25), to expand the record, (Doc. No. 28 and 33), and for an injunction, (D oc.
No. 31), are denied.
Further, I certify there is no basis on which to issue a certificate of appealability. 28 U.S.C. §
2253; Fed. R. App. P. 22(b).
So Ordered.

s/ Jeffrey I. Helmick______
United States District Judge

14

2*4 A

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
WESTERN DIVISION

Case No. 3:17-cv-304

Brian Jury, pro se,

Petitioner,
JUDGMENT ENTRY

v.

David W. Gray, Warden,

Respondent.

For the reasons stated in the Memorandum Opinion and Order filed contemporaneously, I
overrule the objections ofpro se Petitioner Brian Jury, (Doc. No. 20), to the Report and
Recommendation of Magistrate Judge Kathleen B. Burke, (Doc. No. 19). Jury’s petition for a writ
of habeas corpus, (Doc. No. 1), is dismissed as to Grounds I, II, III, VI, and VII, and denied as to
Grounds IV and V.
Further, Jury’s motions to supplement his objections (Doc. No. 21 and 24), to supplement
his motion for an evidentiary hearing, (Doc. No. 25), to expand the record, (Doc. No. 28 and 33),
and for an injunction, (Doc. No. 31), are denied.
Finally, I certify there is no basis on which to issue a certificate of appealability. 28 U.S.C. §
2253; Fed. R. App. P. 22(b).
So Ordered.

s/ Jeffrey J. Helmick______
United States District Judge

■2$ A

Case: 3:17-cv-00304-JJH Doc#: 19 Filed: 10/13/17 lof35. PagelD#:3203

APPENDIX, "C'K
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
BRIAN JURY,
Petitioner,
v.
WARDEN CLARK SCOTT,
Respondent.

CASE NO. 3:17CV304

)
)
)
)
)
)
)
)
)
)

JUDGE JEFFREY J. HELMICK
MAGISTRATE JUDGE
KATHLEEN B. BURKE
REPORT & RECOMMENDATION

Petitioner Brian Jury (“Petitioner” or “Jury”) brings this habeas corpus action pursuant to
28 U.S.C. § 2254. Doc. 1. Jury is detained at the Belmont Correctional Institution, having been
found guilty by an Erie County, Ohio, Court of Common Pleas jury of two counts of abduction,
two counts of rape, one count of felonious assault and four firearm specifications. State v. Jury,
Case No. 2013 CR 472 (Erie Cty. Common Pleas Ct., filed June 27, 2014). At sentencing, the
trial court merged the two abduction counts and the gun specifications and sentenced Jury to
three years on the abduction count, eight years for felonious assault, eleven years for each rape
count and three years for the gun specification, to be served consecutively, for a total of thirty-six
years in prisons. Doc. 8-1, pp. 137-141.
On February 2, 2017, Jury filed his Petition for Writ of Habeas Corpus setting forth seven
grounds for relief. Doc. 1, pp. 7-15. He also filed a Motion for evidentiary hearing, discovery
and counsel. Doc. 9. This matter has been referred to the undersigned Magistrate Judge for a
Report and Recommendation pursuant to Local Rule 72.2. As set forth more fully below,
Grounds 1, 2, 3, 6, and a portion of Grounds 4 and 7 are procedurally defaulted, the remainder of
Ground 7 is not cognizable, and Ground 5 and the remainder of Ground 4 fail on the merits.
Thus, the undersigned recommends that Jury’s Petition for Writ of Habeas Corpus (Doc. 1) be
1

Z6A

Case: 3:17-cv-00304-JJH Doc #: 19 Filed: 10/13/17 2 of 35. PagelD #: 3204

DISMISSED in part and DENIED in part.1 Jury’s Motion for evidentiary hearing, discovery,
and counsel (Doc. 9) is DENIED.
I. Background
In a habeas corpus proceeding instituted by a person in custody pursuant to the judgment
of a state court, the state court’s factual findings are presumed correct. 28 U.S.C. § 2254(e)(1).
The petitioner has the burden of rebutting that presumption by clear and convincing evidence.
28 U.S.C. § 2254(e)(1); see also Railey v. Webb, 540 F. 3d 393, 397 (6th Cir. 2008).
A. State Court Action
1. Underlying Facts
The following summary of underlying facts is taken from the opinion of the Erie County
Court of Appeals, Sixth Appellate District of Ohio:2
{f 3} An eight-day jury trial commenced on June 17, 2014, and the evidence is
summarized as follows. On November 1, 2013, at approximately 2:00 p.m., a motorist
testified that she was travelling westbound on Strecker Road, in Erie County, Ohio, when
she observed a nude female bound and gagged and sitting along the side of the road. The
motorist stated that the victim had tightly bound zip ties on her ankles and hands which
were purple and that she was cold. She described the victim's mental state as “terror.”
The motorist called 911.
{| 4} The motorist testified that she flagged down a passing vehicle; the driver happened
to be an off-duty Erie County sheriffs deputy. Deputy Steve Hammersmith testified that
when he approached the victim he observed and [sic] she was very uncomfortable; he
took off his T-shirt and slid it down over her arms which were still bound. Hammersmith
stated that he removed the heavy tape covering the victim's mouth which also pulled out
some of her hair. Deputy Hammersmith stated that the zip ties around her hands and feet
were “embedded” in her skin approximately a quarter inch.
{^[ 5} Deputy Hammersmith questioned the victim and discovered that she came from a
camper near the roadway. The victim stated that the perpetrator could still be on the
premises and that he was armed. Hammersmith stated that he telephoned dispatch with
1 The grounds in the petition that are procedurally defaulted and not cognizable result in a dismissal; the grounds in
the petition that are addressed on the merits result in a denial.
2 Jury has not demonstrated by clear and convincing evidence that the state court’s findings were incorrect.
Accordingly, the state court’s findings are presumed correct. See 28 U.S.C. § 2254(e)(1); see also Railey, 540 F. 3d
at 397.
2

2 7A

Case: 3:17-cv-00304-JJH Doc#: 19 Filed: 10/13/17 3 of 35. PagelD#:3205

the additional information. Another passing motorist provided a pair of scissors to
remove the zip ties and a neighbor brought out a blanket to cover the victim. Eventually,
she was transported by ambulance to the hospital.
{f 6} Emergency physician, John Smith, testified that he conducted the initial
examination of the victim. Reviewing her chart, Dr. Smith indicated that her chief
complaint was that she was raped five to six times. The victim also complained of pain to
her wrist, ankle and back. The victim indicated that she had fallen out of a trailer and
rolled up a hill. Dr. Smith indicated that the victim's injuries were consistent with being
tied up. Dr. Smith further stated that it was a “slam dunk” as far as his belief that the
victim had been raped. An objection to the testimony was raised and the court gave a
curative instruction. A mistrial based on Dr. Smith's testimony was later requested and
denied.
{^| 7} Dr. Smith clarified that the victim's injuries were consistent with being raped but
that he did not conduct the rape exam; he ordered it and it was done by a Sexual Assault
Nurse Examiner (“SANE”). Dr. Smith noted that the victim denied drug or alcohol use.
(T1 8} SANE Julie Young testified that she was called to conduct a rape kit or rape exam
on the victim. Young stated that she received a narrative statement from the victim.
According to Young, the victim stated that appellant, whom she had met before, was
driving by and offered her a ride to the store. Appellant did not stop at the store and had a
gun and threatened to shoot her. The victim stated that appellant drove her to a camper,
removed her clothing and raped her. Appellant used zip ties to restrain her. Once he left,
the victim stated that she rolled out the door and up on to the road where she was found.
{^j 9} Young testified that she photographed the victim's injuries; the photos were
published to the jury and depicted ligature marks on her wrists and ankles, various
abrasions, and cellular injury to the victim's vagina (such injury could have occurred
during “rough” consensual sex.) Oral, vaginal, and anal swabs were collected as well as
hair samples and fingernail scrapings. The kit was transferred to Deputy Daniel Ozech of
the Erie County sheriffs department. During cross-examination, Young agreed that she
questioned the victim about her drug and alcohol use and that the victim denied using
“recreational drugs.”
10} Lorain Detective Christopher Kovach, testified that his department was contacted
regarding a possible kidnapping case involving appellant. According to Detective
Kovach, appellant owned various properties in Lorain and his girlfriend lived there.
Driving by her home, appellant's work truck appeared to be in the driveway. Zip ties
matching the description of those removed from the victim were seized from the truck. A
Motorola cell phone was also taken from the console of the truck. Speaking with his
girlfriend, police were notified that his motorcycle was not in the garage and that he may
be driving it.
{f 11} James Wolford, a city of Lorain patrol officer, testified that on November 1, 2013,
at approximately 6:15 p.m., and after being informed of the allegations against appellant
and his possible location, he observed appellant riding his motorcycle and initiated a stop.
3

23A

Case: 3:17-cv-00304-JJH Doc#: 19 Filed: 10/13/17 4of 35. PagelD#:3206

Wolford stated that appellant had a loaded .22 caliber pistol in his breast pocket and a
loaded 9 millimeter semi-automatic handgun in his jacket pocket. A knife was found in
the saddlebag of the motorcycle and one was found on his person. DNA swabs were
taken from appellant.
12} Erie County Detective Sergeant Dennis Papineau testified that he acted as a blind
administrator of a photo array presented to the victim. In other words, Papineau did not
know who the suspect was or even if he was included in the array. Detective Papineau
testified that he showed the victim the photo array and that she identified appellant.
{^[ 13} Detective Papineau testified that he then briefly interviewed the victim and
photographed her injuries which included scrapes and dirt around her knees and marks on
her ankles and wrists. Papineau stated that she was visibly upset.
{Tf 14} Papineau testified that a search warrant was executed for the camper and several
items were confiscated including “tie straps,” tissues, and multiple types of duct tape.
Papineau also obtained search warrants for the appellant's iPhone records through
Verizon and the victim's Motorola phone. Detective Papineau stated that there were
several text messages between the two phones; those messages, spanning October 30,
2013, to November 1,2013, were consolidated in an exhibit and admitted into evidence.
The gist of the messages was that the victim was inquiring about renting a property in
Lorain from appellant. The victim was having trouble locating the house; appellant
offered to pick up the victim and show her the house. On November 1, 2013, beginning at
10:37 a.m., the following exchange took place. Appellant to the victim: “Where at.” The
victim to appellant: “On 18.” Appellant to the victim: “Let's go.” The victim to appellant:
“Putting shoes on now.” Thereafter, at 2:54 p.m., from appellant to the victim: “Hope you
liked the house, let me know if you're interested.”
{^15} Detective Papineau was cross-examined about the texting history between
appellant and the victim and her reluctance to acknowledge that she knew him prior to
the events of November 1. Papineau stated that the earliest text the records showed was
from March 1, 2013. Further, the victim's cell number was stored in appellant's phone and
a missed call from her number was placed in July 10, 2013.
{^f 16} Detective Papineau was questioned regarding a second interview with the victim
which he conducted after he had the above information. Detective Papineau admitted that
he did not inquire about the fact that in prior interviews, the victim failed to mention that
she knew appellant. Further, he did not ask for an explanation of the discrepancy in
where the victim was picked up. She stated that she was picked up on 19th Street in
Lorain, Ohio, but the text message stated that she was putting on her shoes on 18th Street.
The victim did admit that there were prior text messages and that she had spoken with
appellant about renting a house.
{^}17} Erie County sheriffs deputy Jared Oliver testified that when he arrived on the
scene, Deputy Hammersmith and the motorist were assisting the victim. Additional
officers and emergency response arrived shortly thereafter. Oliver stated that they
searched the camper and the property. Deputy Oliver stated that they ascertained the
4

29 A

Case: 3:17-cv-00304-JJH Doc#: 19 Filed: 10/13/17 5 of 35. PagelD#:3207

suspect's identity from the VIN of a truck on the property and mail in the mail box. At
that point they also linked appellant to a Lorain County address and informed police in
that jurisdiction of the investigation. Deputy Oliver further testified that the victim
informed him that appellant had been in a white work truck; neighbors stated that he
worked for a gas company. At that point, Deputy Oliver found an Airgas statement in the
camper and deduced that appellant worked for that company. Through Airgas, they
acquired appellant's cell phone number. Deputy Oliver testified that he called appellant's
cell phone and left a message in order to get a GPS coordinate; the coordinate indicated
that the phone was in Lorain County.
{^f 18} Deputy Oliver testified that a few months into the investigation he learned that the
victim had ingested heroin the day before the incident; he was also aware of her use of
Oxycodone and Percocet. Oliver stated that the victim's drug use did not change either
the way the crime was investigated or her status as a crime victim.
19} Deputy Oliver testified regarding several photographs taken at the scene including
photos of a tarp laid out on the ground near the camper. Oliver stated that the grass
underneath the tarp was “fresh” so it had not been there long.
(T) 20} Deputy Oliver was cross-examined about the victim's version of the events.
Specifically, the fact that she initially denied drug use and downplayed her prior contacts
with appellant.
(Tf 21} Lorain Police Detective Steyven Curry testified that he interviewed the victim at
the hospital. The audiotape of the interview was played for the jury. Curry was crossexamined about the victim's version of the events including the fact that her story made it
look like appellant picking her up to give her a ride to the store was a random event and
that they had not been in recent contact. The victim failed to mention she had been
exchanging text messages with appellant that morning about looking at a house for rent.
Detective Curry was also questioned about the fact that the victim was introduced to
appellant through a mutual friend who was a heroin addict and prostitute.
{^f 22} The victim testified that she first met appellant in 2012, and was introduced by
their mutual friend K.A. At the time, the victim knew appellant as “Greg.” Around that
time he showed her an apartment. In October 2013, the victim stated she contacted
appellant about renting a house. She had telephone and text contact with him in the days
leading up to November 1, 2013. The victim testified that she and her boyfriend
unsuccessfully attempted to locate the house; appellant agreed to show it to her the next
day.
(If 23} The victim testified that the next day she walked one street over to see if a friend
had moved from her residence yet; the friend was gone so the victim decided to walk to
the store. The victim testified that appellant pulled up and offered to drive her to the
store; she agreed and got in the truck. The victim stated that appellant did not stop at the
store and when she asked where they were going he said to “shut the f*ck up,” that he
had a gun, and not to move.
5

■2pA

Case: 3:17-cv-00304-JJH Doc#: 19 Filed: 10/13/17 6 of 35. PagelD#:3208

{If 24} Once in Erie County, the victim stated that he stopped and took her into a camper.
He was carrying a gun. Once inside, the victim testified that appellant took off her
clothing and threatened to shoot her if she did not comply. Appellant then placed a knife
to her throat and began raping her. The victim stated that he eventually used zip ties to
restrain her arms and legs. Her mouth was duct-taped shut.
{^f 25} The victim testified that appellant raped her five times and that in between he
went outside for approximately 15 to 20 minutes. The victim could not see what he was
doing but stated that it sounded like he was moving vehicles around. Appellant eventually
left; he took the victim's cell phone.
(If 26} At that time, [the victim] stated that she rolled off the bed and used her head to
move a suitcase and to open the door. [She] then rolled out of the camper and fell to the
ground. [She] stated that she rolled in the rocks and up to the highway where a passing
motorist spotted her and stopped. An off-duty sheriffs deputy also stopped.
(127} The victim denied that any of the treating medical personnel asked about her drug
usage. She admitted that she did not tell them, but stated that she was traumatized from
the events. Appellant testified that Greg (appellant) was the perpetrator and denied that
they had a prior sexual relationship.
{1} 28} During cross examination, the victim stated that she met K.A. approximately two
and one-half years ago and appellant two years ago. The victim also admitted that
appellant was at her home two months prior to the incident. The victim stated that her
boyfriend did not like appellant and he did not want him to know where they lived so that
is why she met him on the next street. The victim indicated that they recently moved to a
neighboring house and appellant had not been there.
(If 29} The victim was then questioned about a series of text messages on the morning of
the incident. At 9:51 a.m., she texted appellant that she could not find the house he had
available for rent. At 10:26 a.m., appellant asked if the victim wanted him to pick her up
to show her; she responded yes. It was determined that they would meet immediately.
She texted him to meet her on 18th Street, and she testified that she told him she was
putting on her shoes to allow time for her to get to the store. The victim stated that she
was surprised that he arrived so quickly. The last text message was sent from appellant to
the victim at 2:54 p.m. that day and read: “Hope you liked the house. Let me know if
you're interested.” The victim stated that at that time she had been found bound on the
side of the road.
(TI 30} Other than the two times she was looking for housing, the victim denied having
any other contact with appellant. When confronted with the cell records which showed
several additional contacts, she stated that K.A. had used her phone because she did not
have one.
{| 31} Forensic scientists testified regarding the chain-of-custody and testing done on
biological materials taken from the rape kit contents, appellant, and swabs from various
other pieces of evidence. The reports, that were testified to and admitted into evidence,
6

3\ A

Case: 3:17-cv-00304-JJH Doc #: 19 Filed: 10/13/17 7 of 35. PagelD #: 3209

showed that the DNA from the vaginal swabs came from the victim and appellant.
Further, the victim could not be excluded as a contributor to the DNA found from the
swab of the knife blade. The statistical likelihood was one in 5,271 unrelated individuals.
32} Following the presentation of the state's evidence, appellant's counsel moved for a
directed verdict on the attempted murder charge arguing that the evidence failed to show
that appellant ha[d] a specific intent or purpose to cause the victim's death. The court
denied the motion.
{f 33} Appellant presented evidence in support of his case. An employee for Airgas
testified that she coordinates jobs with technicians, including appellant who had worked
for the company since 2011. She testified that on November 1, 2013, at 10:40 a.m., she
emailed appellant about a service call in Elyria, Ohio. She was informed that he arrived
there at approximately 12:30 pm., or around lunchtime.
{If 34} During cross-examination, the Airgas employee said she verified the timing
through a driver who saw appellant there and another technician. She was then
questioned about another Airgas employee whose log indicated that appellant arrived at
2:30 p.m.; she clarified that she got the information from her “liaison” at the company
and not from personal knowledge.
{^| 35} Toxicologist Robert Forney testified regarding the results of the victim's urine
drug screen taken upon arrival at the hospital. The results were positive for various
controlled substances, including heroin, and alcohol. Regarding the victim's heroin use,
Forney testified that based on the level detected it would have been “recent,” or within
the preceding 12 hours.
{f 36} Appellant testified that he met the victim in March 2013, and paid her for sex.
Appellant stated that he paid her for sex several more times. Appellant stated that they
had intercourse at least ten times at her house and then various times at his rental
properties for a total of approximately 20 times from September to November 2013.
{^f 37} Appellant testified that on the morning of November 1, 2013, he had slept at his
fiancee's house in Lorain. At approximately 10:00 a.m., appellant testified that the victim
texted that she wanted to see the property he had for rent. Appellant stated that he was in
his work vehicle and was about to head out to his farm to get parts for a job he had that
day. The victim's texts indicated that she was at her home on 18th Street in Lorain.
Appellant stated that he waited in front of her house, she came out and they headed over
to the property. Appellant stated that they did not go in the property because he could not
find the key. Appellant believed that his set of keys was with a maintenance worker.
(TJ 38} Appellant testified that the victim wanted to exchange rent for sex but that he
declined. Appellant did agree to have sex with the victim for money; he stated that she
informed him that they could not go back to her house because her brother (actually her
boyfriend) was there. Appellant suggested that the victim ride with him to his farm, and
that he would drop her off on the way to his job.
7

32/*

Case: 3:17-cv-00304-JJH Doc #: 19 Filed: 10/13/17 8 of 35. PagelD #: 3210

{^f 39} When they arrived at the camper, appellant said that it was cold so he gave the
victim a blanket and went out to get the parts for his job. Appellant stated that it had
recently rained on some tarps that were covering a picnic table and some tools; the tarps
were wet so he laid them on the ground to dry out.
{Tf 40} When he returned to the camper, the victim began performing oral sex. Appellant
stated that they had vaginal intercourse and that he ejaculated in her. Once the sex acts
were completed and the victim was back in his truck, he opened his wallet to pay her the
agreed upon $40. At that point, appellant stated that he discovered that $100 was missing;
he confronted the victim who denied taking it. Appellant testified that he made the victim
remove her clothing and the $100 fell out of her bra. Appellant stated that at that point,
the victim said she wanted $1,000 or she would accuse him of rape.
41} Appellant testified that it “escalated” from there and that the victim was
screaming and calling him names. He testified that he grabbed the victim's wrists behind
her back and put her face-down on a bench. Appellant then grabbed zip ties and secured
her wrists; he stated that he tied her feet together because she was kicking him. Because
she could still maneuver, appellant hogtied or bound her wrists and ankles together.
Appellant stated that she still would not be quiet so he put paper towels in her mouth and
duct taped it shut. Appellant then stated that he told her they both needed a “break” and
said he would be back in a few hours. Appellant stated that he left at approximately 11:30
to 11:40 a.m.
{][ 42} Appellant stated that he arrived at his service call in Elyria, Ohio, between 12:30
and 1:00 p.m. Regarding the testimony that he arrived after 2:30 p.m., appellant stated
that drivers may put down technically incorrect times based on “stop pay” restrictions.
Appellant testified that he finished the job around 2:45 p.m. At that time, he listened to
two voicemails from the Erie County Sheriffs Office; the first one stated that police
needed to speak with him, listening to the second one he could hear his dog barking so he
knew they were at his property. Appellant testified that he panicked and sent a text to the
victim's phone stating that he hoped she liked the house and to let him know if she was
interested.. He stated that he sent it to create an “alibi” or to make it appear that he was
not with the victim. Appellant stated that he took his work truck back to his fiancee's
house, retrieved two guns and two knives and drove towards the farm on his motorcycle.
Approaching his property in Erie County, he observed a sheriffs vehicle in the road;
appellant stated that he turned around and ultimately began driving toward his attorney's
office when he was stopped and arrested by Lorain police.
(If 43} During cross-examination, appellant was questioned about his 2:54 p.m. text
message he sent to the victim which he stated was in response to the police voicemails,
not based upon his intent to kill her and use the text as an alibi. Appellant was then
confronted with his phone records showing that the calls from the deputy were at 3:22
p.m. and 3:24 p.m., which was after he sent the text.
44} Appellant agreed that he laid a tarp out “several feet” from the camper where the
victim was located. Appellant agreed that he restrained the victim's liberty and did not
8

334

Case: 3:17-cv-00304-JJH Doc #: 19 Filed: 10/13/17 9 of 35. PagelD #: 3211

free her in a safe place. Appellant denied taking the victim's cell phone. He denied raping
the victim.
{Tf 45} K.A. testified that she is a heroin addict and a prostitute and that she has had sex
with appellant on a few occasions. K.A. stated that she knew the victim from
“prostituting” and they had met at a drug dealer's house. K.A. denied ever using the
victim's phone to contact appellant.
{^[ 46} Appellant's final witness was a former co-worker who testified that appellant was
a “truthful” person. When cross-examined, he stated that he did not know that appellant
carried guns and paid prostitutes for sex.
{147} Following deliberations, the jury found appellant not guilty of attempted murder,
guilty of two counts of rape and not guilty of three counts of rape, guilty of felonious
assault, guilty of two counts of abduction, a lesser included of kidnapping. The jury
further found appellant guilty of gun specifications as to three of the counts. Appellant
was sentenced on August 7, 2014, and this appeal followed.
State v. Jury, 2016 WL 1615406, at ** 1-8 (Ohio Ct. App. Aug. 22, 2016).
2. Procedural History
On November 14, 2013, an Erie County Grand Jury indicted Jury on one count of
kidnapping, R.C. 2905.01(A)(3), with a firearm specification, R.C. 2941.145 (Count 1); one
count of felonious assault, R.C. 2903.11(A)(1), with a threat of physical harm specification
(Count 2); one count of attempted murder, R.C. 2923.02(A) (Count 3); five counts of rape, R.C.
297.02(A)(2), each count with a firearm specification (Counts 4 - 8); and one count of
kidnapping, R.C. 2905.01(A)(4), with a firearm specification, a sexual motivation specification,
R.C. 2941.147, and a sexually violent predator specification, R.C. 2941.148 (Count 9). Doc. 8-1,
pp. 5-8. Jury, through counsel, pleaded not guilty. Doc. 8-1, p. 9.
On December 6, 2013, Jury submitted a demand for discovery. Doc. 8-1, p. 10. The
state filed an answer to Jury’s demand. Doc. 8-1, p. 14. Jury moved to compel discovery,
asserting that the state’s response was insufficient. Doc. 8-1, pp. 21-22. On February 12, 2014,
Jury moved for disclosure of exculpatory and impeachment evidence. Doc. 8-1, p. 24. The state
filed a supplemental answer. Doc. 8-1, p. 26.
9

3HA

Case: 3:17-cv-00304-JJH Doc #: 19 Filed: 10/13/17 10 of 35. PagelD #: 3212

The case proceeded to trial. On June 26, 2014, the jury found Jury guilty of two counts
of abduction (lesser included offenses in the kidnapping counts), two counts of rape, one count
of felonious assault, and four firearm specifications. Doc. 8-1, p. 68. The trial court ordered
briefing with respect to the issue of the merger of allied offenses. Doc. 8-1, p. 68. At
sentencing, the trial court merged the two abduction counts and the gun specifications and
sentenced Jury to three years on the abduction count, eight years for felonious assault, eleven
years for each rape count and three years for the gun specification, to be served consecutively,
for a total of thirty-six years in prisons. Doc. 8-1, pp. 137-141.
B. Direct Appeal
Jury, through new counsel, timely appealed to the Ohio Court of Appeals. Doc. 8-1, pp.
142, 153. In his brief, he raised the following assignments of error:
1. The verdict is against the manifest weight of the evidence.
2. The trial court erred when it failed to give a lesser included charge of sexual battery.
3. The trial court erred in denying Defendant/Appellant’s motion for mistrial insofar as
the prejudice created by the testimonial evidence of the expert witness outweighed its
probative value.
4. The testimony of Christine Green was wrongfully bolstered by inadmissible hearsay
statements.
5. Defendant/Appellant’s sentence should be vacated as the trial court failed, as a matter
of law, to make specific findings of fact before imposing consecutive sentences pursuant
to Ohio Revised Code §2929.14(C)(4).
6. Defendant/Appellant’s sentence should be vacated as it is excessive, unreasonable and
contrary to law.
Doc. 8-1, p. 154. On April 22, 2016, the Ohio Court of Appeals affirmed the trial court’s
judgment. Doc. 8-1, pp. 235-262. Jury did not file an appeal.
C. State Habeas Corpus

10

Case: 3:17-cv-00304-JJH Doc#: 19 Filed: 10/13/17 11 of 35. PagelD#:3213

On May 14, 2015, Jury, pro se, filed a petition for writ of habeas corpus with the Ohio
Court of Appeals, Seventh District, arguing that the Erie County Court of Common Pleas lacked
jurisdiction because there was “never an initial charging instrument.” Doc. 15-1, p. 3; Jury v.
Miller, Case No. 15 BE 33, 2015-Ohio-2998, 2015 WL 4541984, at *1 (Ohio App. July 22,
2015). The Ohio Court of Appeals dismissed the petition, explaining, “[hjabeas corpus is not
available to challenge either the validity or the sufficiency of an indictment” and finding that
Jury had an adequate remedy: to raise this issue in his direct appeal, which was, at that time, still
pending. Id.
Jury appealed this decision to the Ohio Supreme Court. Doc. 15-1, pp. 80-81. On May
19, 2016, the Ohio Supreme Court affirmed the decision of the Ohio Court of Appeals. Jury v.
Miller, Case No. 2015-1339, 147 Ohio St.3d 49 (Ohio May 19, 2016).
D. Post-Conviction Petition to Vacate and Set Aside Sentence
On August 13, 2015, after his notice of direct appeal but before filing his brief on direct
appeal, Jury, pro se, filed a petition to vacate or set aside judgment of conviction or sentence
pursuant to R.C. § 2953.21 with the trial court. Doc. 8-1, p. 342. He raised the following
grounds for relief:
1. Violation of Fourth and Fourteenth Amendments of U. S. Constitution; Article One,
Section Ten and Sixteenth, Ohio Constitution. (Trial court lacked subject matter
jurisdiction to try case.)
2. Violation of Fourth Amendment of U.S. Constitution; Article 1, Section 14, Ohio
Constitution. (Illegal search and seizure, warrantless arrest)
3. Violation of Fifth and Sixth Amendment of U.S. Constitution; Article 1, Section 10,
Ohio Constitution. (Counsel advised and compelled defendant to take the stand and
incriminate himself.)
4. Violation of 4th, 5th, 6th Amendments of U.S. Constitution; Article 1, Sections 5, 10,
14 of Ohio Constitution. (Ineffective assistance of trial counsel)

11

36A

Case: 3:17-cv-00304-JJH Doc #: 19 Filed: 10/13/17 12 of 35. PagelD #: 3214

5. Violation of 5th and 14th Amendments of U.S. Constitution; Article 1, Section 16,
Ohio Constitution. (Brady violation, prosecutorial misconduct).
6. Violation of 8th Amendment of U.S. Constitution; Section 9, Article 1, Ohio
Constitution. (Trial court utilized erroneous information at sentencing to justify
maximum sentence.)
7. Violation of 5th and 14th Amendments of U.S. Constitution; Article 1, Section 16 of
Ohio Constitution. (Trial court abused its discretion in failing to recognize need for a
change of venue based on pretrial publicity.)
Doc. 8-1, pp. 343-355. The state responded (Doc. 8-1, p. 382) and Jury filed a reply (Doc. 8-1,
pp. 390-392). On May 10, 2016, the trial court considered the arguments raised in Jury’s petition
and reply brief and denied them all. Doc. 8-1, pp. 404-405. Jury did not appeal this decision.
E. Application to Reopen Pursuant to Ohio App. R. 26(B)
On June 20, 2016, Jury, pro se, filed an Application to Reopen pursuant to Ohio App. R.
26(B) with the Ohio Court of Appeals. Doc. 8-1, p. 406. He alleged that he received ineffective
assistance of appellate counsel when appellate counsel failed to set forth the following
assignments of error:
1. Erie County lacked subject matter jurisdiction.
2. Appellate counsel failed to address the ineffective assistance of trial counsel and error
of court for their failure to challenge the competency of alleged victim Christine Green’s
testimony and/or statements made of the alleged incident.
3. Appellate counsel failed to raise ineffective assistance of trial counsel for his failure to
address, investigate, object, etc. throughout proceedings.
4. Appellate and trial counsel failed to challenge the validity and sufficiency of the
indictment, and/or variance from the indictment.
5. Defendant was compelled to testify.
6. Defendant denied effective assistance of counsel for failure to investigate prosecutions
(forensic) evidence and explore “mystery” semen donor.
7. Defendant was denied compulsory process, including the right to effective
confrontation of Green (recalling her to the stand after the statement between Green and
Det. Curry was played.)
12

Case: 3:17-cv-00304-JJH Doc#: 19 Filed: 10/13/17 13 of 35. PagelD#:3215

8. Prosecutorial misconduct—knowingly used false testimony, and committed “Brady”
violations—denying Due Process.
Doc. 8-1, pp. 408-415. On August 19, 2016, the Ohio Court of Appeals issued an opinion
denying Jury’s application to reopen. Doc. 8-1, pp. 444-453.
On September 16, 2016, Jury, pro se, filed an appeal to the Ohio Supreme Court. Doc. 81, p. 264. In his memorandum in support of jurisdiction, Jury raised the following propositions
of law:
I. An otherwise unlawful arrest can not be overcome with a belated injection of theory;
nor can a citizen be denied a probable cause hearing on such a “warrantless arrest”
pursuant to the Fourth and Fourteenth Amendments of the United States Constitution.
II. Due Process was violated for the courts, counsel, and prosecutor for failing to
challenge competency of alleged victim; prosecutorial misconduct in his failure to correct
false testimony, and provide “timely” disclosure of exculpatory evidence pursuant to the
Fifth and Fourteenth Amendments of the United States Constitution.
III. Appellate/trial counsel failed to act as counsel guaranteed pursuant to the Sixth
Amendment of the United States Constitution.
IV. Appellant was denied compulsory process and was compelled to testify pursuant to
the Fifth, Sixth, and Fourteenth Amendments of the United States Constitution.
V. Appellant was subjected to cruel and unusual punishment pursuant to the Eighth
Amendment of the United States Constitution.
Doc. 8-1, p. 267. On November 23, 2016, the Ohio Supreme Court declined jurisdiction
pursuant to S.Ct.Prac.R. 7.08(B)(4). Doc. 8-1, p. 341.
F. Federal Habeas Petition
On February 2, 2017, Jury, pro se, filed his Petition for a Writ of Habeas Corpus. Doc. 1.
He listed the following grounds for relief:
Ground One: Erie County lacks subject matter jurisdiction.
Supporting facts: (1) Instigating officer, Chief Deputy Oliver failed to file or to
have filed a charging instrument prior to or subsequently after Petitioner’s arrest violating
Rules of Criminal Procedure #1-6. (2) Arresting officer, Det. Wolford, made an arrest, on
13

3&A

Case: 3:17-cv-00304-JJH Doc #: 19 Filed: 10/13/17 14 of 35. PagelD #: 3216

the premise of an alleged warrant, later to be discovered did not exist, nor did the
complaint filed in Lorain Municipal Court give reason for probable cause to support
lawful arrest. (3) Erie County used fruits of an unlawful arrest to perpetuate an
indictment. (4) Erie County violated law when it empowered the grand jury to hand-down
an indictment without a lawful charging instrument.
Ground Two: An otherwise unlawful arrest cannot be overcome with a belated injection
of theory; nor can a citizen be denied a probable cause hearing on such a “warrantless
arrest.”
Supporting facts: (1) Law forbids a belated injection of theory outside of trial.
(2) Law forbids a citizen to be denied a probable cause hearing on a warrantless arrest.
(3) Exclusionary rule applies to unlawful arrested criminal defendants whose arresting
officers’ acted with deliberate intent violating the Fourth Amendment.
Ground Three: Due Process was violated for the courts, counsel, and prosecutor for
failing to challenge competency of alleged victim; prosecutorial misconduct in his failure
to correct false testimony, and provide “timely” disclosure of exculpatory evidence.
Supporting facts: (1) Trial counsel and prosecutor knew or should have known
from the toxicology report that alleged victim was well beyond legally impaired. (2)
Judge should have been able to recognize from the evidence/trial testimony a competency
issue with alleged victim. (3) Prosecutor allowed false testimony to be left uncorrected:
a. Instigating and arresting officer’s testimony that a warrant was issued to secure
Defendant leading to an ultimate conviction and incarceration. He knew or should have
known that one was never issued.
b. Prosecutor knew or should have known of testimony of alleged victim was
fabricated in all or in part.
c. Prosecutor lead [sic] witness to believe she was held captive for five to six
hours, knowing such testimony was false.
d. Prosecutor withheld evidence, and provide “timely” disclosure.
Ground Four: Appellant/trial counsel failed to act as counsel guaranteed.
Supporting facts: (1) Counsel failed to investigate forensic evidence. (2) Counsel
failed to call/subpoena/recall witnesses to stand. (3) Counsel failed to do elementary
investigation on alleged warrant, and challenge evidence admitted unlawfully. (4)
Counsel failed to request a change of venue, knowing of pretrial publicity and
inflammatory articles (printed). He failed to conduct a diligent voir dire/request the Court
to do the same, knowing of heavy trial publicity - inquiring of just how much jurors
knew. (5) Failure to request continuance after receiving results of urine sample, and
potential exculpatory evidence six days before trial. (6) Appellate counsel failed to
request voir dire and preliminary hearings to investigate possible issues. (7) Appellate
counsel’s abuse of discretion by improperly raising issues on Petitioner’s direct appeal,
coaxing bias.
Ground Five: Appellant was denied compulsory process and was compelled to testify.
14

3

Case: 3:17-cv-00304-JJH Doc#: 19 Filed: 10/13/17 15 of 35. PagelD#:3217

Supporting facts: (1) Counsel instead of requesting a short recess called
Petitioner to stand at request of judge. (2) Judge improperly/unprofessionally went
outside of his judicial authority by recommending to counsel to advise him to call
Petitioner to the stand. (3) Appellant was not afforded favorable testimony prior to him
having to give testimony.
Ground Six: Appellant/Petitioner was subjected to cruel and unusual punishment.
Supporting facts: (1) Judge failed to make specific findings of fact before
imposing consecutive sentences. (2) Judge’s sentencing was based on bias and prejudicial
findings which have been proved wrong. (3) Petitioner’s sentence was excessive,
unreasonable, and contrary to law.
Ground Seven: Fundamental unfairness throughout trial proceedings created several Due
Process violations against Petitioner.
Supporting facts: (1) Appellate counsel’s failure to have transcribed voir dire has
deprived of supporting any potential claims on the following:
a. Change of venue.
b. Prejudice.
c. Ineffective assistance of counsel claim(s).
d. Fraud on the court.
e. Impartial jury/juror.
(2) Appellate counsel’s failure to have transcribed preliminary hearings deprived
petitioner supporting other various claims. (3) Petitioner’s due process was violated by
being “prevented” from presenting evidence to the jury through the court(s) and
counsel(s). (4) The above courts promoted unfairness by allowing/affirming a belated
injection of theory and/or investigating the probable cause for the initial arrest, by
justifying it with an unconstitutional case law. (5) Petitioner was prejudiced from the
cumulative effect doctrine.
Doc. 1, pp. 7-15. Attached to his Petition, Jury submitted brief in support. Doc. 1-1.
Respondent filed a Return of Writ on May 11,2017 (Doc. 8), and a Corrected Return of Writ on
August 10, 2017 (Doc. 15). On June 16, Jury filed a Motion for evidentiary hearing, discovery
and counsel (Doc. 9), filed his Traverse to Respondent’s Corrected Return of Writ on August 28,
2017 (Doc. 17), and a Supplement to his Traverse on October 10, 2017 (Doc. 18).
II. Standard of Review under AEDPA
Under the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), a
petitioner must meet certain procedural requirements in order to have his claims reviewed in
15

Ho4

Case: 3:17-cv-00304-JJH Doc#: 19 Filed: 10/13/17 16 of 35. PagelD#:3218

federal court. Smith v. Ohio Dep’t of Rehab. & Corr., 463 F.3d 426, 430 (6th Cir. 2006).
“Procedural barriers, such as statutes of limitations and rules concerning procedural default and
exhaustion of remedies, operate to limit access to review on the merits of a constitutional claim.”
Daniels v. United States, 532 U.S. 374, 381 (2001). Although procedural default is sometimes
confused with exhaustion, exhaustion and procedural default are distinct concepts. Williams v.
Anderson, 460 F.3d 789, 806 (6th Cir. 2006). Failure to exhaust applies when state remedies are
“still available at the time of the federal petition.” Id. at 806 (quoting Engle v. Isaac, 456 U.S.
107, 125 n.28 (1982)). In contrast, when state court remedies are no longer available, procedural
default rather than exhaustion applies. Williams, 460 F.3d at 806.
Exhaustion. A federal court may not grant a writ of habeas corpus unless the petitioner
has exhausted all available remedies in state court. 28 U.S.C. § 2254(b)(1)(A). A state
defendant with federal constitutional claims must fairly present those claims to the state courts
before raising them in a federal habeas corpus action. 28 U.S.C. § 2254(b), (c); Anderson v.
Harless, 459 U;S. 4, 6 (1982) (per curiam); Picard v. Connor, 404 U.S. 270, 275-76 (1971); see
- also Fulcher v. Motley, 444 F.3d 791, 798 (6th Cir. 2006) (quoting Newton v. Million, 349 F.3d
873, 877 (6th Cir. 2003)) (“[f]ederal courts do not have jurisdiction to consider a claim in a
habeas petition that was not ‘fairly presented’ to the state courts”). A constitutional claim for
relief must be presented to the state’s highest court in order to satisfy the fair presentation
requirement. See O’Sullivan v. Boerckel, 526 U.S. 838, 845-48 (1999); Hafley v. Sowders, 902
F.2d 480, 483 (6th Cir. 1990). In order to satisfy the fair presentation requirement, a habeas
petitioner must present both the factual and legal underpinnings of his claims to the state courts.
McMeans v. Brigano, 228 F.3d 674, 681 (6th Cir. 2000). This means that the petitioner must
present his claims to the state courts as federal constitutional issues and not merely as issues

16

hi a

Case: 3:17-cv-00304-JJH Doc #: 19 Filed: 10/13/17 17 of 35. PagelD #: 3219

arising under state law. See, e.g., Franklin v. Rose, 811 F.2d 322, 325 (6th Cir. 1987); Prather v.
Rees, 822 F.2d 1418, 1421 (6th Cir. 1987).
Procedural Default. Procedural default may occur in two ways. Williams, 460 F.3d at
806. First, a petitioner procedurally defaults a claim if he fails “to comply with state procedural
rules in presenting his claim to the appropriate state court.” Id. In Maupin v. Smith, 785 F.2d
135, 138 (6th Cir. 1986), the Sixth Circuit provided four prongs of analysis to be used when
determining whether a claim is barred on habeas corpus review due to petitioner’s failure to
comply with a state procedural rule: (1) whether there is a state procedural rule applicable to
petitioner’s claim and whether petitioner failed to comply with that rule; (2) whether the state
court enforced the procedural rule; (3) whether the state procedural rule is an adequate and
independent state ground on which the state can foreclose review of the federal constitutional
claim and (4) whether the petitioner can demonstrate cause for his failure to follow the rule and
that he was actually prejudiced by the alleged constitutional error. See also Williams, 460 F.3d
at 806 (“If, due to the petitioner’s failure to comply with the procedural rule, the state court
declines to reach the merits of the issue, and the state procedural rule is an independent and
adequate grounds for precluding relief, the claim is procedurally defaulted.”) (citing Maupin, 785
F.2d at 138).
Second, “a petitioner may procedurally default a claim by failing to raise a claim in state
court, and pursue that claim through the state’s ‘ordinary appellate review procedures.’”
Williams, 460 F.3d at 806 (citing O’Sullivan, 526 U.S. at 848). “If, at the time of the federal
habeas petition, state law no longer allows the petitioner to raise the claim, the claim is
procedurally defaulted.” Id. While the exhaustion requirement is technically satisfied because
there are no longer any state remedies available to the petitioner, see Coleman v. Thompson, 501
U.S. 722, 732 (1991), the petitioner’s failure to have the federal claims considered in the state
17

yzA

Case: 3:17-cv-00304-JJH Doc#: 19 Filed: 10/13/17 18 of 35. PagelD#:3220

courts constitutes a procedural default of those claims that bars federal court review. Williams,
460 F.3d at 806.
To overcome a procedural bar, a petitioner must show cause for the default and actual
prejudice that resulted from the alleged violation of federal law or that there will be a
fundamental miscarriage of justice if the claims are not considered. Coleman, 501 U.S. at 750.
Merits Review. In order to obtain habeas relief under 28 U.S.C. § 2254(d), a petitioner
must show either that the state court decision (1) resulted in a decision contrary to, or involving
an unreasonable application of, clearly established federal law as determined by the United
States Supreme Court (“contrary to” clause); or (2) resulted in a decision that was based on an
unreasonable determination of the facts in light of the evidence presented in the state court
proceedings (“unreasonable application” clause). Id.
“Under the ‘contrary to’ clause, a federal habeas court may grant a writ if the state court
arrives at a conclusion opposite to that reached by the [United States Supreme] Court on a
question of law or [based on] a set of materially indistinguishable facts.” Williams v. Taylor, 529
U.S. 362, 412-413 (2000). Under the “unreasonable application” clause, a federal habeas court
may grant the writ if the state court identifies the correct governing legal principle from th[e]
Court’s decisions but unreasonably applies that principle to the facts of the prisoner’s case.” Id.
at 413. “Clearly established federal law” refers to the holdings, not dicta, of the Supreme
Court’s decisions as of the time of the relevant state court decision, as well as legal principals
and standards flowing from Supreme Court precedent. Id. at 412; Ruimveld v. Birkett, 404 F.3d
1006, 1010 (6th Cir. 2005). A state court is not required to cite Supreme Court precedent or
reflect an awareness of Supreme Court cases, “so long as neither the reasoning nor the result of
the state-court decision contradicts” such precedent. Early v. Packer, 537 U.S. 3, 8 (2002);
Lopez v. Wilson, 426 F.3d 339, 358 (6th Cir. 2005). If the Supreme Court has not addressed the
18

//3A

Case: 3:17-cv-00304-JJH Doc #: 19 Filed: 10/13/17 19 of 35. PagelD #: 3221

petitioner’s specific claims, a reviewing district court cannot find that a state court acted contrary
to, or unreasonably applied, Supreme Court precedent or clearly established federal law. Carey
v. Musladin, 549 U.S. 70, 77 (2006).
In determining whether the state court’s decision involved an unreasonable application of
law, the court employs an objective standard. Williams, 529 U.S. at 409. “A state court’s
determination that a claim lacks merit precludes federal habeas review so long as ‘fair-minded
jurists could disagree’ on the correctness of the state court’s decision.” Harrington v. Richter,
562 U.S. 86, 101 (2011) (citing Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)); see also
Bray v. Andrews, 640 F.3d 731, 738 (6th Cir. 2011). “A state prisoner must show that the state
court’s ruling on the claim being presented in federal court was so lacking in justification that
there was an error well understood and comprehended in existing law beyond any possibility for
fair-minded disagreement.” Harrington, 562 U.S. at 103.
III. Claim Analysis
Jury sets forth seven grounds for relief in his Petition. Doc. l,pp. 7-15. The undersigned
recommends the Court find that Grounds 1, 2, 3, 6, and a portion of Grounds 4 and 7 are
procedurally defaulted, the remainder of Ground 7 is not cognizable, and Ground 5 and the
remainder of Ground 4 fail on the merits.
A. Ground 1 is procedurally defaulted
In Ground 1, Jury argues that (1) Erie County, the county that he was tried in, lacked
subject matter jurisdiction because he was arrested without a charging document; (2) the
complaint filed against him in Lorain Municipal Court lacked probably cause to arrest him; (3)
Erie County used fruits of an unlawful arrest to perpetuate an indictment; and (4) Erie County
empowered a grand jury to hand down an indictment without a lawful charging instrument. Doc.
1, p. 7; Doc. 1-1, p. 40. All these arguments challenge proceedings prior to the grand jury
19

Case: 3:17-cv-00304-JJH Doc#: 19 Filed: 10/13/17 20 of 35. PagelD#:3222

indictment and are the basis for Jury’s argument that the trial court lacked subject matter
jurisdiction over him.
Ground 1 is procedurally defaulted. Jury raised Ground 1 as his sole ground for relief in
his state habeas petition. Doc. 15-1, pp. 3, 5-9. The Ohio Court of Appeals dismissed his
petition because his claim could not be challenged via a habeas petition; instead, it must be
raised on direct appeal. Jury, 2015 WL 4541984.3 Jury appealed and the Ohio Supreme Court
affirmed. Jury, 59 N.E.3d 1280. Both state courts’ rulings applied a procedural bar that is an
independent and adequate state ground for denying relief and which is firmly established and
regularly applied by the state courts. See McDougald v. Warden, Lebanon Corr. Inst., 2012 WL
4506392, at *8 (S.D. Ohio Oct. 1, 2012) (the petitioner’s claim challenging his charging
indictment was procedurally defaulted; the petitioner raised the claim in a state habeas petition
and the state court applied a procedural bar when it dismissed his petition on the grounds that the
petitioner should have raised it on direct appeal, not via a state habeas petition); Orr v. Mack,
700 N.E.2d 590 (Ohio 1998) (affirming the court of appeals’ dismissal of a state habeas petition;
“habeas corpus is not available to attack the validity or sufficiency of the charging instrument.”).
Because Jury failed to properly present his claim to the Ohio courts and the Ohio courts applied a
firmly established and regularly applied procedural bar in denying relief, his claim is
procedurally defaulted. See Williams, 460 F.3d at 806.
Jury also raised Ground 1 in his petition to vacate or set aside judgment of conviction or
sentence, Doc. 8-1, p. 342, but the trial court applied Ohio’s res judicata bar and denied his
petition, Doc. 8-1, pp. 404-405. Jury never appealed this decision; thus, he procedurally
defaulted there, too, because he failed to pursue his claim through the state’s ordinary appellate
review procedures. Williams, 460 F.3d at 806. Finally, although Jury discussed this claim in his
3 At the time the Ohio Court of Appeals dismissed Jury’s state habeas petition, Jury’s direct appeal was still
pending. He did not seek leave to add this ground to his direct appeal.
20

H5.A

Case: 3:17-cv-00304-JJH Doc#: 19 Filed: 10/13/17 21 of 35. PagelD#:3223

Rule 26(B) Application, the claim presented there was an ineffective assistance of appellate
counsel claim for failing to challenge Jury’s charging instrument on direct appeal. Doc. 8-1, pp.
407-408. Presenting a challenge to a charging instrument in a Rule 26(B) Application as an
attempt to show ineffective assistance of appellate counsel for not raising the issue on direct
appeal does not preserve the underlying claim as a stand-alone constitutional claim. See Ohio
App. R. 26(B) (A Rule 26(B) Application for Reopening must be based on a claim of ineffective
assistance of appellate counsel); Davie v. Mitchell, 547 F.3d 297, 312 (6th Cir. 2008) (“[A] Rule
26(B) application based on ineffective assistance cannot function to preserve the underlying
substantive claim” because “the two claims are analytically distinct[,]” quoting White v. Mitchell,
431 F.3d 517, 526 (6th Cir. 2005) (internal quotation marks omitted)). Thus, when the Ohio
Court of Appeals considered and rejected Jury’s Rule 26(B) Application alleging ineffective
assistance of counsel due to alleged deficiencies in the charging instrument, it considered the
claim based on his assertion that appellate counsel was ineffective for not raising it, and not as a
stand-alone constitutional claim. Doc. 8-1, pp. 445-448, 452. Thus, in all these ways, Jury
procedurally defaulted Ground 1.
To overcome the procedural default bar, Jury must show cause for his default and actual
prejudice that resulted from the alleged violation of federal law or that there will be a
fundamental miscarriage of justice if his claims are not considered. See Coleman, 501 U.S. at
750.
Jury does not show cause to excuse his procedural default. To the extent appellate
counsel’s failure to raise this claim on direct appeal could serve as cause, the Ohio Court of
Appeals found that appellate counsel was not ineffective for failing to raise a claim that the state
trial court lacked jurisdiction because of the alleged irregularities and violation of Ohio Crim.R.3
prior to the grand jury indictment. Doc. 8-1, pp. 446-448. The Ohio Court of Appeals’ finding
21

HAA

Case: 3:17-cv-00304-JJH Doc#: 19 Filed: 10/13/17 22 of 35. PagelD#:3224

was not unreasonable; there was probable cause to arrest Jury and the'state court proceedings did
not violate Crim.R.3. See Doc. 8-1, pp. 446-668. See also State v. Luther, 2005 WL 517473, at
*2-3 (Oh. Ct. App. March 4, 2005) (rejecting the defendant’s argument that the trial court lacked
subject matter jurisdiction because there was no complaint in the record, explaining that minor
criminal prosecutions may initiate via complaint per Crim.R.3, but “[fjelonies, such as rape, may
only be initiated by indictment of the grand jury” and, therefore, “the existence of a complaint by
a complaining witness is irrelevant in regards to the trial court’s subject matter jurisdiction in
Luther’s [rape] case.”). And “it has been long settled that ‘the finding of an indictment, fair upon
its face, by a properly constituted grand jury, conclusively determines the existence of probable
cause for the purpose of holding the accused to answer.’” Higgason v. Stephens, 288 F.3d 868,
877 (6th Cir. 2002). Finally, Jury’s claim that the grand jury’s indictment was improper because
it was based on evidence obtained through an illegal search and seizure in violation of his Fourth
Amendment right fails because the exclusionary rule of the Fourth Amendment does not apply to
grand jury proceedings. Calandra v. United States, 414 U.S. 338, 349 (1974).
Jury offers no specifics with respect to how he would suffer a fundamental miscarriage of
justice if the Court does not review his claim. Doc. 17, p. 19. To demonstrate a miscarriage of
justice, a petitioner must make a showing of actual innocence. Schlup v. Delo, 513 U.S. 298, 327
(1995). Jury does not show actual innocence. Indeed, Jury testified at trial that, on the day of
the crime, he had arranged to meet the victim and drove to pick her up; he had a gun in his car;
he drove the victim to his camper and had sex with her; he hog-tied the victim with zip ties while
she was naked; he stuffed her mouth with tissues and put duct tape over her mouth, using a knife;
he drove off, leaving her tied and naked in his camper; and that, upon receiving a voicemail from
the police a few hours later, he panicked and sent the victim a text message “trying to create

22

V7/4

Case: 3:17-cv-00304-JJH Doc #: 19 Filed: 10/13/17 23 of 35. PagelD #: 3225

some sort of alibi... or try to make it look like I was never with her.” See, e.g., Doc. 8-2, pp.
845-846, 849-850, 855-859, 862, 915, 920, 924, 928-929, 945.
Ground 1 is procedurally defaulted.
B. Ground 2 is procedurally defaulted
In Ground 2, Jury argues that he was denied a probable cause hearing on his alleged
unlawful arrest, a “belated injection of theory” was used to overcome his alleged unlawful arrest,
and the Fourth Amendment’s exclusionary rule applied to him, an unlawfully arrested
defendant.4 Doc. 1, pp. 8-9; Doc. 1-1, p. 46. For the same reasons explained above, Ground 2 is
procedurally defaulted and Jury cannot show cause, prejudice, or a fundamental miscarriage of
justice to overcome the procedural bar.5
C. Ground 3 is procedurally defaulted
In Ground 3, Jury argues that his due process rights were violated when the court, his trial
counsel and the prosecutor failed to challenge the competency of the victim and when the
prosecutor committed misconduct by failing to correct false testimony and timely disclose
exculpatory evidence. Doc. l,p. 10.
All Jury’s claims in Ground 3 are procedurally defaulted. Jury states that he raised these
issues in his Rule 26(B) Application (Doc. 1-1, p. 52); however, they were not properly
presented to the state courts as stand-alone constitutional claims because, as part of Jury’s Rule
26(B) Application, they were raised only as ineffective assistance of counsel claims. See Davie,

4 Jury concedes, “This issue was raised only to the Supreme Court of Ohio” in his appeal of the Ohio Court of
Appeals’ decision denying his Rule 26(B) Application. See Doc. 8-1, p. 267. It appears as though he is referring to
his “injection theory” argument, which was first so-named in his brief to the Ohio Supreme Court. These arguments
are indistinguishable from the arguments Jury presented in Ground 1.
5 Jury does not present a Fourth Amendment claim with respect to the evidence presented against him at trial, which
would implicate the rule in Stone v. Powell, 428 U.S. 465,494 (1976) (“where the State has provided an opportunity
for full and fair litigation of a Fourth Amendment claim, a state prisoner may not be granted federal habeas corpus
relief on the ground that evidence obtained in an unconstitutional search or seizure was introduced at his trial.”).
Jury only alleges a Fourth Amendment violation based on the evidence used to obtain an indictment.
' ~ 23 '

Case: 3:17-cv-00304-JJH Doc #: 19 Filed: 10/13/17 24 of 35. PagelD #: 3226

547 F.3d at 312 (raising claims in a Rule 26(B) Application is insufficient to preserve stand­
alone constitutional claims). Jury did raise his exculpatory evidence claim in his post-conviction
petition (Doc. 8-1, p. 351), but did not appeal the trial court’s decision denying his petition. See
Williams, 460 F.3d at 806 (claims must be pursued through the state’s ordinary appellate review
procedures).
Jury cannot show cause to excuse his procedural default. To the extent that ineffective
assistance of appellate counsel could serve as cause, the Ohio Court of Appeals rejected the
arguments presented by Jury. It explained that Jury’s challenge to the victim’s competency
described a witness credibility issue. Doc. 8-1, p. 449. Jury had challenged the victim’s ability
to recall events due to the fact that she was under the influence of mind-altering drugs at the time
of the crime and her memory was impaired. Doc. 8-1, pp. 409-410; Doc. 1-1, p. 52, 58; Doc. 17,
p. 22. The Ohio Court of Appeals accurately stated that this is a witness credibility issue; it is
not a competency issue. See, e.g., R.C. 2317.01, Evid. R. 601 (“Every person is competent to be
a witness except

[tjhose of unsound mind ... who appear incapable of receiving just

impressions of the facts and transactions respecting which they are examined, or relating them
truly.”); State v. Grahek, 2003 WL 21196544, at *4 (Oh. Ct. App. May 22, 2003) (rejecting a
defendant’s claim that the competency of a witness (who admitted that he had lied while on the
stand, tells people what they want to hear, has learning problems and takes medication) should
have been assessed, explaining that the issue is credibility, not competency); State v. Madison,
2007 WL 2009537, at *4-5 (Oh. Ct. App. July 12, 2007) (witness’s history of crack cocaine use
—but no mind-altering drug use at the time of testimony did not render witness incompetent to
testify, noting that “imperfect recollection goes to the credibility of a witness” rather than
competency); State v. Carsten, 1995 WL 234163, at *4 (Oh. Ct. App. Apr. 20, 1995) (witness’s
drug use and prior criminal record go to credibility, not competency). The victim’s toxicology
24

WA

Case: 3:17-cv-00304-JJH Doc#: 19 Filed: 10/13/17 25 of 35. PagelD#:3227

report revealing the drugs and medications she had taken around the time of the crime were
thoroughly discussed at trial. Doc. 8-2, pp. 874-909. Defense counsel repeatedly referred to the
victim’s toxicology report, her admitted use of heroin, and the inconsistencies in statements she
made to the hospital, police and at trial. See, e.g., Doc. 8-2, pp. 508-509, 510-511, 1105-1109.
Jury does not explain how the Ohio Court of Appeals’ decision was unreasonable.. Neither the
trial court nor defense counsel committed error by not challenging the victim’s competency to
testify.
Nor can ineffective assistance of appellate counsel serve as cause to excuse procedural
default of Jury’s remaining claims, i.e., that the prosecutor failed to correct false testimony and
failed to “timely” disclose exculpatory evidence. The Ohio Court of Appeals quickly dispensed
with these claims. It noted that the alleged “false testimony” Jury complained of is witness
testimony and reiterated that the credibility of a witness is determined by the jury. Doc. 8-1, p.
452. The Ohio Court of Appeals also observed that Jury did not identify any evidence that the
state had in its possession that it did not provide. Doc. 8-1, p. 452. Jury complains that he
received the victim’s urine sample late (Doc. 8-1, p. 414, Doc. 1-1, p. 59), but does not dispute
that he received the evidence prior to trial. Evidence regarding the toxicology report run on the
victim’s urine sample was presented by Jury at trial. See, e.g., Doc. 8-2, pp. 874. Jury also
admits that the state provided him with a communication from Buckeye Molded Products
estimating that Jury had been there around 12:30 p.m. to 1:00 p.m. Doc. 1-1, p. 59. This
evidence was also received prior to trial and discussed at trial. Doc. 8-2, pp. 828-829.
Ground 3 is procedurally defaulted.
D. A portion of Ground 4 is procedurally defaulted and the remainder fails on the
merits

25

5C>A

Case: 3:17-cv-00304-JJH Doc#: 19 Filed: 10/13/17 26 of 35. PagelD#:3228

In Ground 4, Jury argues that trial counsel was ineffective because counsel failed to
investigate, call witnesses, request a change in venue, conduct diligent voir dire, and request a
continuance after receiving results of a urine sample six days before trial, and that appellate
counsel was ineffective for failing to request voir dire and preliminary hearing transcripts and by
failing to raise issues on appeal, “coaxing bias.” Doc. 1, p. 11.
1. Ineffectiveness of trial counsel claims are procedurally defaulted
Jury’s claims regarding trial counsel’s alleged ineffectiveness for failing to investigate,
call witnesses, request a change in venue and conduct diligent voir dire are procedurally
defaulted. First, although he raised these claims in his Rule 26(B) Application as reasons
appellate counsel was ineffective, that did not preserve these claims as stand-alone ineffective
assistance of trial counsel claims. Moreover, as the Ohio Court of Appeals explained in denying
his Rule 26(B) Application, Jury referenced evidence outside the record in support of his claims
and a Rule 26(B) Application is not the proper vehicle to challenge errors evidenced outside the
record. Doc. 8-1, pp. 450, 452 (Ohio Court of Appeals’ decision); Doc. 8-1, p. 410 (Jury’s Rule
26(B) Application wherein he states that his ineffective assistance of appellate counsel claim for
failing to raise ineffective assistance of trial counsel on direct appeal is based on evidence
outside the record); see State v. Alsip, 2011 WL 303834, at *1 (Oh. Ct. App. Jan. 24, 2011)
(claims based on evidence outside the record are barred in a Rule 26(B) Application); State v.
Coleman, 707 N.E.2d 467, 483 (Ohio 1999) (facts not in the record used to support ineffective
assistance of counsel must be brought in a post-conviction petition under R.C. 2953.21).
Although Jury raised claims of ineffective assistance of trial counsel in his state post­
conviction petition pursuant to R.C. 2953.21 (Doc. 8-1, p. 348), his petition was denied and Jury
did not appeal. Thus, these claims are procedurally defaulted because he failed to pursue his
claims through the state’s proper appellate review procedures. See Williams, 460 F.3d at 806.
26

5IJ

Case: 3:17-cv-00304-JJH Doc#: 19 Filed: 10/13/17 27 of 35. PagelD#:3229

Jury does not allege cause to excuse his procedural default for failing to appeal the trial
court’s denial of his post-conviction petition. Nor can he show that he was prejudiced. To the
extent Jury alleges trial counsel was ineffective for failing to perform “elementary investigation
on [the] alleged warrant” and to challenge evidence admitted unlawfully (Doc. 17, p. 25), these
claims fail for the reasons explained by the Ohio Court of Appeals (Doc. 8-1, pp. 446-448) and
in the undersigned’s discussion of Ground 1, supra. His contention that, “singularly and
collectively, the cumulative effect of these errors operated to produce a trial that was
fundamentally unfair” (Doc. 17, p. 26) is not specific or compelling.
Jury cannot show cause, prejudice or manifest injustice to overcome the procedural bar;
these claims are procedurally defaulted.
2. Jury’s first ineffective assistance of appellate counsel claim is procedurally
defaulted and/or fails on the merits and his second fails on the merits
Jury raised his first ineffective assistance of appellate counsel claim—that appellate
counsel was ineffective for failing to request voir dire and preliminary hearing transcripts to
investigate possible issues—in his Rule 26(B) Application. Doc. 1, p. 11; Doc. 8-1, p. 410. The
Ohio Court of Appeals construed this claim as a claim that appellate counsel failed to investigate.
Thus, the Ohio Court of Appeals explained that this implicates matters outside the record and,
therefore, cannot be considered in a Rule 26(B) Application. Doc. 8-1, pp. 449-450. See also
State v. McGrath, 2002 WL' 1041725, at *3 (Oh. Ct. App. May 16, 2002) (claim that appellate
counsel was ineffective for failing to investigate is based on matters outside the record). The
Ohio Court of Appeals applied a firmly established and regularly applied state procedural bar
and Jury defaulted this claim.
To the extent Jury alleged ineffective assistance of appellate counsel based on counsel’s
failure to request voir dire and preliminary hearing transcripts, this argument fails. Jury does not
27

5 2^

Case: 3:17-cv-00304-JJH Doc #: 19 Filed: 10/13/17 28 of 35. PagelD #: 3230

demonstrate that he was prejudiced, as required to show ineffective assistance of counsel. See
Strickland v. Washington, 466, U.S. 668 (1984) (a defendant must show that counsel’s
representation fell below an objective standard of reasonableness and, but for counsel’s
unprofessional errors, the result of the proceeding would have been different). Jury does not
identify anything that occurred during voir dire or preliminary hearings that he alleges was error,
only that appellate counsel did not investigate “possible issues.” Because he cannot show that he
was prejudiced by appellate counsel’s failure to obtain transcripts of voir dire and preliminary
hearings, his claim fails on the merits.
Jury’s remaining ineffective assistance of appellate counsel claim is that counsel failed to
raise issues on appeal, “coaxing bias.” The Ohio Court of Appeals, after setting forth the
standard for ineffective assistance of counsel in Strickland, explained that appellate counsel is
not required to raise and argue meritless assignments of error, and that counsel cannot be found
ineffective for failing to raise every conceivable claim on appeal. Doc. 8-1, pp. 446, 449.
Instead, appellate counsel must choose the best arguments to present to the court. Id. The Ohio
Court of Appeals observed that Jury’s appellate counsel raised six assignments of error on direct
appeal. Id. After considering all these raised errors and Jury’s alleged errors, it concluded that
appellate counsel chose the arguments that appeared to be the strongest, i.e., counsel was not
ineffective. Id. pp. 449-450. Jury does not explain how the Ohio Court of Appeals’ decision
“was so lacking in justification that there was an error well understood and comprehended in
existing law beyond any possibility for fair-minded disagreement.” Harrington, 562 U.S. at 103.
This claim of ineffective assistance of appellate counsel fails on the merits.
E. Ground 5 fails on the merits
In Ground 5, Jury argues that he was compelled to testify and denied compulsory process.
Doc. 1, p. 12. He contends that the trial court, improperly going outside its judicial authority,
28

B3A

Case: 3:17-cv-00304-JJH Doc#: 19 Filed: 10/13/17 29 of 35. PagelD#:3231

requested counsel put Jury on the stand prior to one of the other defense witnesses. Doc. 1-1, p.
76.
Jury’s claims fail. A review of the transcript shows the following. At 9:07 a.m., defense
counsel informed the trial court that the witness he planned to call could not be located and,
therefore, could not testify. Doc. 8-2, p. 830. The next defense witness to testify was Dr.
Forney, who was scheduled to testify at 10:00 a.m., and who was not present at the courthouse at
9:07 a.m. Id. When defense counsel explained this issue to the trial court during a sidebar, the
trial court suggested that defense counsel put Jury on the stand for an hour, break for Dr.
Forney’s testimony, and then finish Jury’s testimony. Id. Defense counsel stated, “That would
be good.” Id. The trial court reiterated, “I’m okay with that as long as you guys are,” and both
defense counsel and the prosecutor were amenable to the course suggested by the trial court. Id.
at 830-831. The fact that the trial court suggested a course of action to avoid an hour-long delay
at trial did not violate Jury’s constitutional rights; nor did defense counsel’s willingness to
proceed in this manner. And Jury does not articulate why he was harmed by testifying before
Dr. Fomey. He only claims that, had he heard Dr. Forney’s “favorable” testimony, it was “more
likely than not” he would not have testified. Doc. 17, p. 27. But Dr. Fomey is a toxicologist and
testified about the victim’s toxicology report, Doc. 8-2, p. 872, testimony that Jury knew about
because his trial counsel included it in his opening statement. Doc. 8-2, pp. 118 (“we’re going to
have testimony in this case that [the victim] had a hundred dollar to $200 per day heroin habit,
and we’re going to find out that she had used heroin recently, probably that morning. I think
that’s the evidence that Dr. Fomey will give to you, that this was recent heroin use.”), p. 127
(“And Dr. Fomey will come in here and testify from the Lucas County Coroner’s Office that she
had illegal substances consistent with heroin, recent heroin use, in her system.”).

29

5^4

Case: 3:17-cv-00304-JJH Doc#: 19 Filed: 10/13/17 30 of 35. PagelD#:3232

Jury’s assertions are further belied by the record. The following sidebar exchange makes
clear that Jury was not “compelled” to testify and that he was not undecided about whether to
testify:
[Defense counsel] MR. BRADLEY: I just wanted the record to be clear that I advised
Brian Jury that he has a right to either testify or not testify and that I went out to the jail
yesterday and discussed with him whether he should testify or not testify and - but I told
him that it had to be his independent decision as to whether he should testify or not, and
he informed me that he would — he chose to testify. I just wanted the record to be clear
that I did advise him that that was his choice, not mine. I certainly recommended to him
that he testify, but I let him make the final decision, and the Court may want to inquire of
himCOURT: Okay.
MR. BRADLEY: — as to whether or not that was COURT: Okay. You — you stay here and I'll inquire (inaudible). Now, you understand
you have a Constitutional right not to testify, and if you choose not to testify, I will tell
the jury that they can't hold that against you. Additionally, the State of Ohio cannot
comment on the fact that you did not testify. Attorney Bradley says that he went out to
the jail yesterday and discussed this with you and that this was your choice to testify. He
had suggested you may want to, but the final choice is yours because it's your
Constitutional right and not his.
MR. JURY: That's correct.
COURT: And you do want to testify; therefore, giving up your right, your Constitutional
right not to testify?
MR. JURY: Yes, sir.
COURT: And you understand you'd be subject to cross examination obviously by the
State of Ohio in this matter?
MR. JURY: Yes, sir.
COURT: Okay.
MR. BRADLEY: Thank you.
COURT: Your attorney just wanted that on the record, okay?
Doc. 8-1, pp. 833-835.
30

55/?

Case: 3:17-cv-00304-JJH Doc#: 19 Filed: 10/13/17 31 of 35. PagelD#:3233

Ground 5 fails on the merits.
F. Ground 6 is procedurally defaulted
In Ground 6, Jury argues that he was subject to cruel and unusual punishment when he
was sentenced because the trial court failed to make specific findings of fact before imposing
consecutive sentences; his sentence was based on bias and prejudicial findings which have been
proved wrong; and his sentence was excessive, unreasonable, and contrary to law. Doc. 1, p. 13.
Ground 6 is procedurally defaulted because Jury only presented these claims to the Ohio
Court of Appeals as a violation of state law, not as federal constitutional claims. On direct
appeal, Jury argued that the trial court failed to make specific findings of fact as required by R.C.
2929.14 (Doc. 8-1, pp. 174-176) and that Jury’s sentence was excessive, unreasonable, and
contrary to law in that it should have been concurrent rather than consecutive sentences (Doc. 81, pp. 176-178 (citing R.C. 2929.11 and 2929.12)). The Ohio Court of Appeals affirmed Jury’s
conviction and sentence (Doc. 8-1, pp. 259-262) and Jury did not appeal. His failure to appeal
constitutes procedural default as does the fact that he did not present these claims as federal
constitutional violations. McMeans v. Brigano, 228 F.3d 674, 682 (6th Cir. 2000) (a petitioner
does not fairly present a claim to the state courts if he relies on the applicability of state laws
rather than a federal constitutional right). And, although Jury raised a sentencing error in his
post-conviction petition, he did not describe that error as a federal constitutional error (Doc. 8-2,
pp. 353-354), and he did not appeal the trial court’s denial of his petition, committing yet another
form of procedural default. See Williams, 460 F.3d at 806 (a petitioner must pursue his claim
through the state’s ordinary appellate review procedures or it is procedurally defaulted).
Jury does not assert cause or prejudice to excuse these procedural defaults, stating,
“Petitioner sees no need to apply cause and prejudice.” Doc. 17, p. 28. Instead, he submits that
a fundamental miscarriage of justice will continue to occur if the Court does not review this
31

544

Case: 3:17-cv-00304-JJH Doc#: 19 Filed: 10/13/17 32 of 35. PagelD#:3234

claim. Id. He incorporates by reference arguments he made in his post-conviction petition to
contend that the evidence that supported the sentence was false. Id. (citing Doc. 8-1. 353-354).
Jury’s assertion is belied by the record. First, the trial court accurately characterized Jury’s past
conviction as a disorderly conduct conviction, not assault, as Jury had alleged. See Doc. 8-1, p.
353, Doc. 8-7, pp. 34, 39 (sentencing transcript). Second, to the extent the trial court referenced
a dishonorable discharge from the military (Doc. 8-7, pp. 31-32), it commented that Jury himself
stated during his bond hearing that he had gone AWOL and had been dishonorably discharged,
but the trial court remarked that it found no record of charges brought against Jury and referred
to Jury’s military service as a positive aspect of his life (Doc. 8-7, p. 34). Moreover, Jury
himself informed this Court in his brief in support of his Petition that he went AWOL from the
military. Doc. 1-1, p. 12. In other words, Jury does not show that the trial court’s findings were
false.
Finally, as the Ohio Court of Appeals observed, the trial court sentenced Jury to
consecutive sentences for the following reasons:
I think that a bound, gagged, hogtied, naked female left in a trailer that you even
talked about when the trailer, you got there, it was cold, that you gave her a blanket and
that you had to warm up your own hands because it was so cold in there. Leaving her like
that and for her to have to crawl out of it, roll up off the yard, up the stones, and onto the
middle of a highway, or a road I should say, where the speed limit's 55, and lay there and
hope, hope that you're not coming back to kill her, because, according to her version, you
had told her that if she moved, your cell phone would go off and you'd be right back. Just
hope that somebody else would come by to save her. The Court finds that that conduct is
outrageous, just outrageous for one human being to do that to another human being. So
the seriousness of your conduct, one single penalty would not adequately reflect that.
Additionally, not only abduction, the rapes, and I've talked about the violent
nature of the rapes, but also the zip ties and the gagging and putting the Kleenex in the
mouth and everything else or tissue, if you will, in the mouth and then duct taping around
that, all that, the Court finds that consecutive sentences are necessary.
Doc. 8-1, pp. 261-262 (quoting the trial court’s sentencing transcript); Doc. 8-7, pp. 44-45
(sentencing transcript).
32

57/1

Case: 3:17-cv-00304-JJH Doc#: 19 Filed: 10/13/17 33 of 35. PagelD#:3235

Jury does not show a miscarriage of justice to overcome his procedural default.
G. A portion of Ground 7 is not cognizable and the remainder is procedurally
defaulted
In Ground 7, Jury lists the following sub-claims: (1) appellate counsel’s failure to have
vior dire and preliminary hearings transcribed deprived Jury of the means to support potential
claims; (2) Jury’s due process rights were violated because he was prevented from presenting
evidence to the courts and counsel; (3) the state courts promoted unfairness with respect to the
lack of probable cause for his initial arrest; and (4) Jury was prejudiced by the cumulative effect
doctrine. Doc. l,p. 15.
As for (1), the undersigned considered this claim when discussing Ground 4, supra, and
explained that it is procedurally defaulted and/or fails on the merits. As for (2), Jury does not
describe what evidence he was prevented from presenting to the courts and his counsel. Thus, he
has failed to properly plead his claim per Rule 2(c)(2) of the Rules Governing Section 2254
Cases; he has also procedurally defaulted this claim because he did not present such a claim to
the Ohio courts. The undersigned discussed (3), supra, when it considered Ground 1. Finally,
(4) is not cognizable because the cumulative effect doctrine is not available on federal habeas
review. Sheppard v. Bagley, 657 F.3d 338, 348 (6th Cir. 2011).
H. Jury’s motion for evidentiary hearing, discovery and counsel is denied.
Jury filed a motion requesting an “evidentiary hearing, discovery and/or counsel.” Doc.
9, p. 2.
28 U.S.C. § 2254(e) provides,
(1) In a proceeding instituted by an application for a writ of habeas corpus by a person
in custody pursuant to the judgment of a State court, a determination of a factual issue
made by a State court shall be presumed to be correct. The applicant shall have the
burden of rebutting the presumption of correctness by clear and convincing evidence.
(2) If the applicant has failed to develop the factual basis of a claim in State court
33

Case: 3:17-cv-00304-JJH Doc#: 19 Filed: 10/13/17 34of 35. PagelD#:3236

proceedings, the court shall not hold an evidentiary hearing on the claim unless the
applicant shows that—
(A) the claim relies on—
(i) a new rule of constitutional law, made retroactive to cases on collateral
review by the Supreme Court, that was previously unavailable; or
(ii) a factual predicate that could not have been previously discovered
through the exercise of due diligence; and
(B) the facts underlying the claim would be sufficient to establish by clear and
convincing evidence that but for constitutional error, no reasonable factfinder
would have found the applicant guilty of the underlying offense.
In support of his request, Jury details what evidence he believes exists that would support
the grounds in his Petition. Doc. 9, pp. 2-15. However, as discussed above, Jury’s grounds are
procedurally defaulted, fail on the merits, and/or are not cognizable. Disagreement about the
route Jury drove when he picked up the victim and how many times he could have raped her in
the time span shown at trial, as Jury proposes (e.g., Doc. 9, pp. 3, 5), is not convincing evidence
that, but for constitutional error, no reasonable factfinder would have found him guilty of the
underlying offenses. § 2254(e)(2)(B).
Jury’s motion is denied.

34

Case: 3:17-cv-00304-JJH Doc#: 19 Filed: 10/13/17 35 of 35. PagelD#:3237

IV. Conclusion and Recommendation
For the reasons stated above, the undersigned recommends that Jury’s Habeas Petition be
DISMISSED in part and DENIED in part because Grounds 1, 2, 3, 6, and a portion of Grounds
4 and 7 are procedurally defaulted, the remainder of Ground 7 is not cognizable, and Ground 5
and the remainder of Ground 4 fail on the merits. Jury’s Motion for evidentiary hearing,
discovery and counsel (Doc. 9) is DENIED.

5($■

Dated: October 13, 2017

Kathleen B. Burke
United States Magistrate Judge

OBJECTIONS
Any objections to this Report and Recommendation must be filed with the Clerk of Courts
within fourteen (14) days after the party objecting has been served with a copy of this Report and
Recommendation. Failure to file objections within the specified time may waive the right to
appeal the District Court's order. See United States v. Walters, 638 F.2d 947 (6th Cir. 1981); see
also Thomas v. Arn, 474 U.S. 140 (1985), reh’gdenied, 474 U.S. 1111 (1986).

.

35

60#

A BP £ Ni>IX//&a
No. 19-3300
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
BRIAN JURY,

)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
DAVID W. GRAY, WARDEN,
Respondent-Appellee.

FILED
May 26, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: SILER, STRANCH, and DONALD, Circuit Judges.
Brian Jury petitions for rehearing en banc of this court’s order entered on April 7, 2020,
denying his application for a certificate of appealability. The petition was initially referred to this
panel, on which the original deciding judge does not sit. After review of the petition, this panel
issued an order announcing its conclusion that the original application was properly denied. The
petition was then circulated to all active members of the court, none of whom requested a vote on
the suggestion for an en banc rehearing. Pursuant to established court procedures, the panel
now denies the petition for rehearing en banc.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

08/19/2016

14:39

4192134844

PAGE

6TH DISTRICT COA

*4\
<

y£>

01/10

-a a*1/

% /;

<3

Ahpew bu
IN THE COURT OF APPEALS OF OHIO
SIXTH APPELLATE DISTRICT
ERIE COUNTY
State of Ohio
Appellee

Court of Appeals No. E-14-100
Trial-Court No. 2013-CR-472

v.

Brian Jury
Appellant

DECISION AND JUDGMENT
Decided:

AUG 1 9 2016

* * *^ *

This matter is before the court on the pro se application of appellant, Brian Jury, to
reopen his appeal pursuant to App.R, 26(B). The state has opposed the application. For
the reasons set forth herein, we deny the application. '
On August 7,2014, following a jury trial convicting him of rape, felonious assault,
and abduction, appellant was sentenced to a total of 36 years of imprisonment. This court
affirmed the convictions and sentence. See State v. Jury, 6th Dist. Erie No. E-14-100,
2016-Ohio-2663.

1.

037^ S' 3
zls&Jih,
32/4

08/19/2016

14:39

4192134844

6TH DISTRICT COA

PAGE

02/10

Appellant lists eight assignments of eirror he believes were not presented to the
court due to appellate counsel’s deficient representation:
I. Erie County lacked subject matter jurisdiction.
II. Appellate counsel failed to address the ineffective assistance of
trial counsel and error of court for their failure to challenge the competency
of alleged victim []’s testimony and/or statements made of the alleged
incident.
III. Appellate counsel failed to raise ineffective assistance of trial
counsel for his failure to address, investigate, object, etc. throughout
proceedings.
IV. Appellate and trial counsel failed to challenge the validity and
sufficiency of the indictment, and/or variance from the indictment.
V. Defendant was compelled to testify,
VI. Defendant denied effective assistance of counsel for failure to
investigate prosecutions (forensic) evidence and explore “mystery” semen
donor.
VII. Defendant was denied compulsory process, including the right
to effective confrontation of [the victim] (recalling her to the stand after the
statement between, [the victim] and Det. Curry was played.)
VIII. Prosecutorial misconduct- knowingly used false testimony,
and committed “Brady” violations-dcnying due process.

2.

&3A

08/19/2016

14:39

4192134844

6TH DISTRICT COA

PAGE

03/10

We note that “[a]n application for reopening shall be granted if there is a genuine
issue as to whether the applicant was deprived of the effective assistance of counsel on
appeal.” App.R. 26(B)(5). Whether a genuine issue of ineffective assistance of counsel
exists is determined by die two-prong test set forth in Strickland v. Washington, 466 U.S.
668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984). In order to prove ineffective assistance of
counsel, a defendant must show (1) that his counsel’s performance fell below an
objective standard of reasonable representation in. some particular respect or respects and
(2) that he was so prejudiced by the defect or defects that diere exists a reasonable
probability that, but for counsel’s errors, the result of the trial would, have been different.
State v. Bradley, 42 Ohio St.3d 136, 538 N.E.2d 373 (1989), paragraphs two and three of
the syllabus, following Strickland.
Appellant first argues that appellate counsel, was ineffective in failing to raise the
issue of the validity of appellant’s arrest in Lorain County. Specifically, appellant
contends that the arrest was made without a warrant and, thus, Ihe subsequent indictment
and conviction were invalid.
“[0]fficers without personal knowledge of specific facts establishing probable
cause may rely on police dispatches to establish probable cause.” State v. Amilcar, 10th
Dist. Franklin No. 08AP-357,2008-0hio-6918, f 29, citing State v. Pettry, 4th Dist.
Jackson App. Nos. 617, 618, 1990 Ohio App. LEXIS 3407(Aug. 9, 1990), The United
State Supreme Court has held:

3.

6QA

08/19/2016

14:39

4192134844

6TH DISTRICT COA

PAGE

[Where] police make a Terry stop in objective reliance on a flyer, the
evidence uncovered in the course of the stop is admissible if the police
[from a neighboring jurisdiction] who issued the flyer possessed a
reasonable suspicion justifying the stop, and if the stop that occurred was
not significantly more intrusive than would have been permitted the issuing
department. United States v. Hensley, 469 U.S. 221, 231, 105 S.Ct. 675, 83
L.Ed.2d 604 (1985), paragraph two of the syllabus.
At trial, Lorain, patrol officer James Wolford testified that at the start of his shift he
was briefed on an alleged kidnapping and rape in Erie County and that appellant was the
suspect. According to Wolford, the Erie County Sheriffs office had informed his
department of appellant’s possible location and that a warrant existed. Wolford stated
that he exited the briefing and proceeded to the area where appellant was seen. He
observed appellant on a motorcycle driving towards him with patrol cars behind him.
Appellant was eventually stopped and a .22 caliber and a 9 millimeter pistol were found
on his person. Eased on this evidence, we conclude that Officer Wolford cited specific
and articulable facts that gave rise to a reasonable suspicion that appellant had engaged in
criminal activity.
Appellant further contends that counsel was ineffective in failing to raise that he
was not properly charged by complaint under Crim.R. 3. We reject this argument.
Appellant was charged by indictment. Once an indictment has been approved, the prior

4.

04/10

08/19/2016

14:39

4192134844

6TH DISTRICT COA

PAGE

05/10

proceedings are not subject to direct or collateral attack because it has been independently
determined that a prima. facie case exists. State v. Pryor, 1st. Dist. Hamilton No.
C-l 10205, 2012-Ohio-1033, | 7, quoting State v. Washington, 30 Ohio App.3d 98, 99,
506 N.E.2d 1203 (8th Dist. 1986). See State v. Turner, 3d Dist. Allen No. 1-11-01, 2011
Ohio-4348; State v. Thacker, 4th Dist. Lawrence No. 04CA5, 2004-Ohio-3978Therefore, appellant’s first assignment of error is denied.
In appellant’s second assignment of error he contends that appellate counsel failed
to address the trial court’s and trial, counsel’s failure to challenge the competency of the
victim, Appellant argues that the victim’s alcohol and illicit drug usage could have
impacted her recollection of die facts and rendered her testimony unreliable.
The victim testified at trial and admitted to her heroin usage on the night preceding
die events. She was also prescribed narcotics including Percocet. She admitted that she
did not tell hospital personnel about her drug usage. The victim was cross-examined
about each specific drug she had used and in particular her heroin usage. The victim
denied using alcohol.
Appellant’s witness, toxicologist Robert Forney, conducted a drug screen of the
victim’s urine and testified regarding the positive results for multiple substances. Fomey
testified that based on the results, the victim, would have used heroin within hours of the
alleged incident, not the day before. Forney did later admit that it could have been in the
early morning hours of the same day.

5.

&6A

08/19/2016

14:39

4192134844

6TH DISTRICT COA

PAGE

06/10

V

The jury’s role is to assess a witness’s credibility. State v. Triplett, 6th Dist. Lucas
No, L-05-1.160, 2008-Ohio-367,

63, citing State v. DeHass, 10 Ohio St.2d 230, 27-7

N.E.2d 212 (1967). Counsel thoroughly questioned the victim about her drug use and the
toxicology report was testified to and admitted into evidence. Appellant’s second
assignment of error is rejected.
Appellant’s third assignment of error contends that appellate counsel neglected to
argue that trial counsel was ineffective by failing to, inter alia, request a venue change,
file a motion to suppress, argue a speedy trial rights violation, argue jury misconduct, and
request lesser offense jury charges as to felonious assault and rape, Appellant admits that
his arguments relating to these claims are “limited” because the record is incomplete.
Common sense dictates that appellate counsel is not required to raise and argue
assignments of error that are meritless. State v. Stewart, 8th Dist. Cuyahoga No. 93428,
2011-Ohio-1667, f 4, citing Jones v. Barnes, 463 U.S. 745, 77 L.Ed.2d 987, 103 S.Ct.
3308 (1983), Further, “[a]ppellate counsel cannot be considered ineffective for failing to
raise eveiy conceivable assignment of error on appeal.” Id., citing Jones, State v. Gumm,
73 Ohio St.3d 413, 653 N.E.2d 253 (1995) and State v. Campbell, 69 Ohio St.3d 38, 630
N.E.2d 339 (1994). Counsel is charged with the task of choosing the best arguments to
present to the court. State v, Haliym, 8th Dist, Cuyahoga No. 54771, 2001 Ohio App.
LEXIS 3892, 8-9 (Aug. 27, 2001), citing Jones, supra.
In the present case, appellate counsel raised six assignments of error from alleged
trial errors to sentencing errors. Reviewing appellant’s arguments, the errors raised on

6.

6~>-&

08/19/2016

14:39

4192134844

6TH DISTRICT COA

PAGE

' V

appeal appear to be the strongest; thus, we find no error. Further, as to any alleged errors
evidenced outside the record, we may not review those on a motion to reopen, an appeal.
See State v. Alsip, 8th Dist. Cuyahoga, No. 93105, 201 l-Ohio-303,16,. We reject the
third assignment of error.
Appellant next argues that trial and appellate counsel were ineffective in failing to
challenge the validity and sufficiency of the indictment; specifically, that he was “over­
indicted” on trumped up charges. Appellant argues that the time frame and
circumstances failed to support the number of rape charges.
As quoted by the state, R.C, 2941.25, multiple counts, provides:
(A) Where the same conduct by defendant can be construed to
constitute two or more allied offenses of similar import, the indictment or
information may contain counts for all such offenses, but the defendant
may be convicted of only one.
(B) Where the defendant’s conduct constitutes two or more offenses
of dissimilar import, or where his conduct results in two or more offenses
of the same or similar kind committed separately or with a separate animus
as to each, the indictment or information may contain counts for all such
offenses, and the defendant may be convicted of all of them.
Appellant contends that because the victim’s statements as to the specific acts of
rape were inconsistent, the police and prosecutor and, in turn, the grand jury should not
have indicted on the numerous counts. We are not privy to the testimony presented

7.

07/10

08/19/2016

14:39

4192134844.

6TH DISTRICT COA

PAGE

08/10

• !•

during grand jury proceedings. Appellant’s trial counsel, effectively cross-examined the
victim as to the acts at issue and the jury, in its role of assessing witness credibility, found
appellant, not guilty of three of the five couhts of rape. We reject appellant’s fourth
assignment of error.
Appellant’s fifth assignment of error argues that appellate counsel was ineffective
in failing to raise the trial court’s and counsel’s ineffectiveness in “suggesting/allowing”
appellant to take the stand prior to two of his witnesses including his expert, Robert
Forney, so Forney would not be “inconvenienced.” Appellant contends that this
prejudiced him because he was unable to hear from a “favorable” witness before deciding
to take the stand. He further argues that although it appears that trial counsel’s strategy
was “self-defense,” counsel failed to request that the “Castle” doctrine be heard as a
defense as well, as properly instructing the jury.
As to the order of the testimony, appellant could have waited to take the stand or
not testified at all. Even assuming that he was somehow required to testify before his
own witnesses, appellant has failed to demonstrate any evidence of prejudice. See State
v. Lillo, 6th Pist. Huron No. H-10-001, 2010-0hio-6221, f 35. We reject appellant’s
fifth assignment of error.
In appellant’s sixth assignment of error, he argues that appellate counsel was
ineffective in failing to raise trial, counsel’s failure to pursue the investigation of a
“mystery semen donor.” Appellant’s alleged error refers to an “unknown partial-Y
chromosome” recovered from the victim. The BCI report indicated that there was

8.

i^A

08/19/2016

14:39

6TH DISTRICT CDA

4192134844

PAGE

09/10

•>
I

“insufficient data” for comparison. Appellant argues that trial counsel should have had
the sample retested. We reject this argument. The BCI scientist was cross-examined
regarding the report. Further, the fact that there may have been a “mystery” donor does
not negate the findings implicating appellant. Appellant’s sixth assignment of error is
rejected.
Appellant next argues, in his seventh assignment of error, that trial counsel was
ineffective in failing to call or recall various witnesses. Any argument relating to
witnesses not called for trial is outside of the record and may not be considered by this
court. As to the victim, she was thoroughly cross-examined by counsel. We find that
appellant’s seventh assignment of error is not well-taken.
In his final assignment of error, appellant argues prosecutorial .misconduct in that
the state failed to timely disclose exculpatory evidence. Appellant fails to enumerate any
actual evidence that the state had in its possession that it did not provide. Further,
appellant again makes arguments relating to the credibility of the victim. As stated
above, credibility determinations are for the jury. Triplett, 6tb Dist Lucas No.
L-05-1160, 2008-Ohio-367, at <|{ 63. Appellant’s eighth assignment of error is not welltaken.
Based on the foregoing, we find no genuine issue as to whether appellant was
denied die effective assistance of appellate counsel and appellant’s application to reopen
his appeal is denied.

9.

7oA

08/19/2016

14:39

4192134844

PAGE

6TH DISTRICT COA

10/10

State v. Jury
C.A. No. E-14-100

Mark L. Pjetrvkowski. J.
Arlene Singer, J.
Stephen A, Yarbrough. J.
CONCUR.

JUDGE

10.

7/ A

